<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2005

                              ----------                              


                        THURSDAY, MARCH 11, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns and Dorgan.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF HON. MARK REY, UNDER SECRETARY FOR NATURAL 
            RESOURCES AND ENVIRONMENT, DEPARTMENT OF 
            AGRICULTURE
ACCOMPANIED BY:
        DALE N. BOSWORTH, CHIEF
        HANK KASHDAN, DIRECTOR, PROGRAM AND BUDGET ANALYSIS

               OPENING STATEMENT OF SENATOR CONRAD BURNS

    Senator Burns. I will call the committee to order. I am 
very pleased to see Chief Bosworth and Mark Rey this morning 
appearing before this subcommittee. Let me start off. I want to 
congratulate you and cite you for carrying out the duties of 
your office with great skill, because we have been through some 
tenuous times here the last couple of years. It does not look 
like the drought is completely broken, but we are a little bit 
better off in moisture this year than we have been, and that is 
the good news.

                       PROPOSED BUDGET INCREASES

    The fiscal year 2005 President's budget for the Forest 
Service is $4.238 billion in discretionary appropriations. This 
represents a very modest 1.1 percent increase compared to the 
2004 level of $4.19 billion in non-emergency funds. Many of the 
Agency's operating programs are funded at levels similar to 
those of last year. There are some significant increases, 
however, including: Research, $14.2 million; the Forest Legacy 
program, which has an additional $35 million in it; the 
Hazardous Fuels program, $33 million; and Wildfire Suppression, 
$88.2 million. That is probably where we will center some of 
our discussion today.
    I believe the increase for Wildfire Suppression is 
particularly important given our experience with the fire 
seasons of the past few years. The average annual cost of fire 
suppression for the Forest Service in the last 4 years has 
exceeded $1 billion. We do not know what return the American 
taxpayer got on that, but nonetheless, it is a figure that 
worries a lot of us.
    By the way of comparison, in the 4 years prior to that, it 
was $349 million. So we can see a drastic increase in our fire 
suppression.
    These increased costs have forced the Agency to borrow 
massive amounts of money from non-fire programs. Last year 
alone, the Agency borrowed $695 million. In 2002, it borrowed 
close to $1 billion. This annual borrowing has created serious 
management problems and forced the Forest Service to cancel or 
delay many important projects.
    While I support the proposed increase of $88 million for 
fire suppression in the 2005 budget, no one should be under any 
illusion that this will solve the fire borrowing problem. In 
fact, if the fire season is anything like we have seen in the 
last few years, the Agency would still have to borrow hundreds 
of millions of dollars from non-fire programs.
    That is why I supported the language in the Senate budget 
resolution that provides up to an additional $400 million each 
year for the Forest Service firefighting from 2004 through 
2006, and I assure my colleagues that this will not be a blank 
check for the Forest Service. In my view, cost containment 
procedures must be tied to the use of the funds. I hope to 
discuss this issue with you today.

                       PROPOSED BUDGET DECREASES

    I mentioned some of the increases in the budget request. 
There are also some significant decreases, which do concern me. 
For example, funding for Capital Improvement and Maintenance 
has been decreased by $54 million, or 10 percent, compared to 
the current level. I believe this is unwise, given the $5 
billion backlog of maintenance work in our national forests.
    Funding for State Fire Assistance has also been decreased, 
by $25 million. That is almost a 30 percent cut. This program 
provides critical funds to train and equip local fire 
departments. These local fire departments are often the first 
to respond to wildland fires and they provide a vital link with 
the Forest Service and the Department of the Interior.
    I am also troubled by the $17 million cut to the Forest 
Health program in State and Private Forestry. We have millions 
of acres in our Nation's forests that are infested with insects 
and diseases like the western bark beetle, the southern pine 
beetle, and the gypsy moth. The dead trees that result from 
these pests add to our already excessive fuel loads in our 
forests. Reducing this program directly affects the Agency's 
ability to monitor and eradicate these problems.
    On the financial management side of the budget, I am 
pleased to see that the Agency obtained a clean audit opinion 
for their 2003 books. That is good because, as you know Chief, 
up until you came we had many problems in getting an audit. I 
congratulate you. I think this is the second year in a row that 
you have passed your audit and that is a good sign. They always 
had excuses before, but I think your leadership at the Forest 
Service, to not only deal with all the challenges that you had 
and then still come up with a good audit is really an 
achievement.
    I want to thank you today for joining us, you and Mark. I 
look forward to hearing your testimony, asking you both some 
questions in the hearing.
    Now we have been joined by the ranking member and good 
friend from North Dakota, Senator Dorgan.

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Senator Burns, thank you very much. I 
appreciate working with you on this subcommittee.
    Chief Bosworth, thank you for joining us, and Under 
Secretary Mark Rey and Mr. Kashdan.
    I agree with most of what my colleague has described with 
respect to priorities. The Forest Service is a big old 
bureaucracy that is charged with some very important work. When 
I say ``big bureaucracy,'' I do not mean to be pejorative, but 
the fact is, big organizations are big and bureaucratic and 
sometimes slow to act. My hope is that as we work through this 
Forest Service budget, we can find ways to restore some funding 
in some of the areas that have been cut that I think are 
critical and perhaps cut some funding in areas that are not so 
critical.
    I would like to just mention one thing that I am going to 
be doing with a number of agencies. In 1993, then-President 
Clinton required of all Federal agencies that they identify 
their ``overhead,'' quote unquote, or their G and A, general 
and administrative, expenses. I just had the GAO finish a study 
of what the compliance with that has been, and virtually no 
Agency has complied with it.
    So I am going to be asking agencies to take a look for us 
at what in fact are the true G and A or overhead expenditures 
in the Agency. The reason is fairly obvious. With the kind of 
Federal deficit we face and the critical needs for funding, as 
my colleague just described it in certain areas, we need to cut 
some funding as well. If this were a business--I know it is 
not, but if it were a business, the first thing we would take a 
look at is taking a few percent off overhead. That is the first 
place you try to cut back just a bit, tighten your belt with 
respect to overhead, travel, and so on.
    It is very hard to do that because most agencies have not 
developed an accounting process by which they establish what 
their overhead really is. So I am going to ask you to work with 
us on that if you will.
    The $4.5 billion for the Forest Service in our subcommittee 
accounts for almost 20 percent of all the funding in this 
Interior bill. So this is a very, very important matter for 
Senator Burns and myself.

                   INVASIVE SPECIES AND NOXIOUS WEEDS

    I do want to mention, I did bring a weed once again, as I 
did last year. This is a very small part of this issue. Chief 
Bosworth, you well recognize this at first glance, I know. Very 
few Americans do, but I know you do. It is called leafy spurge 
and it is no friend of the Forest Service, no friend of 
ranchers, and no friend of mine.
    I brought it last year because, as you know, I added an 
earmark in the Appropriations bill to help control leafy spurge 
on Forest Service lands because the Forest Service has a 
responsibility to be a good neighbor. If it does not control 
its weeds, then the weeds move over into the adjacent land and 
private landowners get mighty upset because they feel the 
Federal Government is not a good neighbor.
    I felt the money I had added before had been misused. I do 
not mean it was stolen or frittered away, but I mean that I 
felt the Forest Service subsumed it for its other expenses 
rather than putting it on the ground in the form of chemicals 
and controlling these weeds.
    My understanding is that things have improved in the last 
year--this is not, by the way, the same leafy spurge I brought 
a year ago, although I probably could have. It is hardy. It is 
pretty hard to kill. I probably could have kept it alive for 
the year.
    But my understanding is that you have done better and I 
want to hear from the Forest Service about that. I just think 
it is important, it is really important to private landowners 
who have land adjacent to the Forest Service. This noxious weed 
problem is a very serious problem for them.
    My father, bless his soul, he used to--Senator Burns 
probably had relatives like this. My father felt that 2-4-D 
cured everything. You know, in that movie ``My Big Fat Greek 
Wedding'' where the guy used Windex on everything; no matter 
what happened he just sprayed Windex and it cured it all. My 
dad just walked around with a can of 2-4-D, which of course is 
now illegal. But he would just spray 2-4-D on everything.
    Leafy spurge would not have worked well in our yard or in 
our pasture because he would have killed it dead. But now the 
things he would have used to kill it would not really work well 
with current law. So we have to work within the confines of our 
environmental interests in doing all of this.
    Let me say that I think the deferred maintenance account is 
a very serious problem. We have a big backlog. I believe the 
backlog is very close to $8 billion, and as I look at it, the 
budget request, appropriations request, cuts fiscal year 2004 
funding by 68 percent. Well, I do not know how we can sit there 
with a deferred maintenance backlog that is so big and then 
decide, well, not only is it not a priority just to keep level, 
but we will cut it by nearly 70 percent. I just do not think 
that works.

                             WILDLAND FIRE

    My colleague Senator Burns talked about firefighting, and 
that is an issue he has been especially aggressive on. We in 
North Dakota are number 50 among the 50 States in native forest 
lands, so I am not the world's expert on fighting forests 
fires. But Montana has had a huge and growing problem with 
these issues, as have many other parts of the country. We have 
to get our hands around this and find a way to deal with these 
needs.
    Having said all of that, let me again say that Senator 
Burns and I are from neighboring States and from different 
political parties, but he and I work closely together. I admire 
the work he does and I enjoy working with him on this 
subcommittee. We want to work with the Forest Service to 
accomplish your goals on behalf of the American taxpayers.
    I do have to say as well, before we hear statements, that I 
have a 10 o'clock hearing that I do not have much of a choice 
to miss. It is over in the Commerce Committee and it is being 
held specifically because I demanded it. I have a hold on a 
nominee. So I am going to ask my colleague from Montana to 
continue without me after 10 o'clock.
    But, Chief, thank you for being with us. Senator Burns, 
thanks again for convening the hearing.
    Senator Burns. You bet. Do not go over there unless you 
have got your pistol cocked now; you know, you have got it all 
ready and everything.
    Thank you, Senator Dorgan; I appreciate those statements. 
It is a committee where we get along pretty good. It seems like 
our priorities along the northern part of the United States, 
the northern tier States are similar. We all have a lot of 
similar problems and we try to deal with them in our own way.
    Chief, thank you very much for coming this morning and we 
look forward to your testimony and our discussion this morning. 
Do you want to go first, Mr. Secretary? Is that what you want 
to do?

                   SUMMARY STATEMENT OF HON. MARK REY

    Mr. Rey. I will go first with a very brief statement and 
then I will defer to the Chief.
    Let me start by thanking you for the opportunity to present 
the President's fiscal year 2005 budget for the Forest Service, 
the budget for the centennial year of the Forest Service. But 
before we discuss the specifics of that budget, I would like to 
take the opportunity to express my gratitude and that of the 
President for the bipartisan support of the Congress that led 
to the passage of the Healthy Forests Restoration Act. All of 
the members of this committee understand the devastation and 
tragedy caused by catastrophic wildfire and more than half of 
the members have experienced it firsthand in their States, 
whether through forest fires or grass fires.
    The commitment to protecting communities and natural 
resources that Congress demonstrated in passing the Healthy 
Forests Restoration Act will be reflected in the priorities of 
the Forest Service and our sister agencies in the Department of 
the Interior for years to come. So again, I would like to thank 
the committee and the Senate for that effort.
    Chief Bosworth will be highlighting a number of items of 
importance to the Forest Service today. In my testimony, let me 
just touch on two of these issues as well: the implementation 
of the Healthy Forests Restoration Act and the Agency's 
achievement of its second clean audit opinion in 2 years.

                    HEALTHY FORESTS RESTORATION ACT

    Prior to fiscal year 2000, attention was beginning to focus 
on the vulnerability of natural resources to catastrophic 
wildland fires due to the buildup of hazardous fuels. The 
devastating fire season of 2000 brought the seriousness of the 
forest health problem to the homes of all Americans through 
seemingly constant reports in newspapers, on television, or in 
other media.
    Congress responded quickly with its support for treatment 
of hazardous fuels, invasive species infestations, and other 
threats to our Nation's forests, range and grasslands. The 
overwhelming support for the Healthy Forests Restoration Act in 
which Congress underscores the importance of this legislation 
across the Nation, not just in the western United States, but 
also in other parts of the country that are affected by 
drought, fires, invasive species, and similar problems.
    In reflecting the President's Healthy Forests Initiative, 
the fiscal year 2005 President's budget places increased 
emphasis on protecting communities and property from the effect 
of catastrophic wildfire. The President's budget provides 
funding for many activities that support forest health, 
including $760 million for activities in the Forest Service and 
the Department of the Interior that directly and visibly will 
result in protecting communities and restoring watersheds 
through reduction of hazardous fuels.

                          CLEAN AUDIT OPINION

    Now touching on the second issue, which is the clean audit 
opinion that the Forest Service recently received; as I 
indicated and as you mentioned, Mr. Chairman, this is the 
second unqualified opinion in the last 2 years for the Forest 
Service after many years of financial accountability problems. 
The Forest Service and the Department are working to ensure 
that timely, reliable financial information is provided in 
which the receipt of a clean opinion is the byproduct of an 
efficient and cost-effective financial management organization 
that can be sustained in the long term. The Chief will be 
telling you about some of our plans to that end as he speaks 
shortly.

                         LEGISLATIVE PROPOSALS

    Inasmuch as both of you mentioned our maintenance backlog, 
I would like to draw your attention to the legislative 
proposals in the President's fiscal year 2005 request to 
provide the Forest Service with the authority to convey at fair 
market value excess assets and to use the proceeds from the 
sale of those assets in doing maintenance across the National 
Forest System.
    It is my judgment that the size of the maintenance backlog 
is such that even if we restored the money that we reduced from 
the fiscal year 2004 enacted budget and sustained that increase 
over time, it would take us until the bicentennial of the 
Forest Service, at that rate of expenditure to deal with the 
maintenance backlog. So, obviously, we are not going to address 
the maintenance backlog in its entirety solely through 
appropriated dollars.

                           PREPARED STATEMENT

    Providing us the legislative authority to convey excess and 
unneeded assets and to use the proceeds from that to do 
maintenance work will accelerate our efforts to address the 
maintenance backlog in a way that merely appropriating more 
money will not. It will do that, first, by giving our land 
managers an incentive to divest themselves of unneeded assets 
as opposed to carrying them on our inventory of assets and 
including them in the maintenance backlog; and of course, the 
proceeds that we get from the sale of assets--in some cases 
such as southern California, extraordinarily valuable assets 
which are of no particular land management or resource 
management value--will generate revenues that will move us more 
quickly to that end than our combined efforts through trying to 
find additional appropriated dollars.
    So with that, I would refer your attention to that 
legislative proposal and defer to the Chief for his remarks. 
Thank you.
    [The statement follows:]

                  Prepared Statement of Hon. Mark Rey

    Mr. Chairman, Senator Dorgan, and members of the Subcommittee, 
thank you for the opportunity to discuss the President's fiscal year 
2005 Budget for the Forest Service. I am pleased to join Dale Bosworth, 
Chief of the Forest Service, at the hearing today on the budget for the 
centennial year of the Forest Service. Before discussing the specifics 
of the budget, I would like to take the opportunity express my 
gratitude and that of the President for the bipartisan support of this 
Subcommittee that led to passing the Healthy Forests Restoration Act 
(HFRA). All of the members of this Subcommittee understand the 
devastation and tragedy caused by catastrophic wildfire and more than 
half of the members have experienced it firsthand in their States. The 
commitment to protecting communities and natural resources you 
demonstrated in passing the HFRA will be reflected in the priorities of 
the Forest Service for years to come. Again, thank you.

                                OVERVIEW

    Chief Bosworth will be highlighting a number of items of importance 
to the Forest Service today. In my testimony, I want to address two of 
these issues as well. I will talk more about the HFRA, and the agency's 
achievement of its second ``clean'' audit opinion in 2 years. In 
managing natural resources, we often use the term ``sustainability'' in 
context of maintaining long-term forest and rangeland health and 
ensuring the long-term delivery of services to the American people. The 
bipartisan support demonstrated by Congress in passing the HFRA will 
ensure significant and measurable returns on the investment of the 
American public. ``Sustainability'' can also be applied to obtaining a 
clean opinion in terms of maintaining the public's trust that their 
funds are being managed effectively. Implementing HRFA and effective 
financial management will require diligent and concerted efforts on the 
part of employees throughout the Forest Service to take the agency to 
sustainable levels of improvement. I am confident that the Forest 
Service under Chief Bosworth's leadership will meet these challenges 
and continue to provide the high quality of natural resources 
management that the American public expects.

                    HEALTHY FORESTS RESTORATION ACT

    Let me specifically address the Healthy Forests Restoration Act. 
Prior to fiscal year 2000, attention was beginning to focus on the 
vulnerability of natural resources to catastrophic wildland fires due 
to the buildup of hazardous fuels. In the late 1990's, the Forest 
Service developed risk maps that highlighted fuels buildups and serious 
threats to forest health throughout the Nation. I recall Senator Craig 
noting in reviewing what was referred to as ``forest risk maps,'' that 
northern Idaho was a ``big red blob'' signifying the dangerous buildup 
of hazardous fuels in that area. Because of the serious nature of the 
problem throughout the Nation, and especially in the West, Congress 
responded by authorizing focused experiments to restore health and 
productivity of our forests and rangelands by authorizing the Quincy 
Library Group activities in northern California, as well as stewardship 
end results contracting demonstration authority.
    The devastating fire season of 2000 brought the seriousness of the 
forest health problem to the homes of all Americans, through seemingly 
constant reports in newspapers, on television, and in other media. The 
catastrophic fire seasons of 2002 and 2003 further underscored the 
problem. Although the Forest Service and bureaus in the Department of 
the Interior have worked together diligently since 2000, the complexity 
and extent of the problem do not afford us quick solutions. From 2001 
to 2003, the Forest Service and Department of the Interior agencies 
have treated a total of 7 million acres to reduce the levels of 
hazardous fuels in our Nation's forests and grasslands. In fiscal year 
2004, the Forest Service will treat an additional 1.6 million acres and 
plans to treat 1.8 million acres in fiscal year 2005 with hazardous 
fuels funds. Additionally, in fiscal year 2004, the agency will 
accomplish more than 600,000 acres of hazardous fuels reduction through 
other land management activities including wildlife habitat 
improvement, vegetation management, and the sale of forest products. 
This integration of land management treatments is an important aspect 
of the President's healthy forest emphasis
    Congress has responded quickly with its support for treatment of 
hazardous fuels, invasive species infestations, and other threats to 
our Nation's forests. Funding for hazardous fuels reduction and fire 
suppression activities since fiscal year 2000 has increased 
dramatically. In response to the President's Healthy Forests Initiative 
(HFI), Congress, with strong bipartisan support in both the House and 
the Senate, passed the Healthy Forests Restoration Act in December 
2003, which contains key elements of the HFI. This Act gives the Forest 
Service and the Department of the Interior much-needed tools and 
authorities to reduce the threat of catastrophic wildfire to 
communities and to restore our Nation's forests and grasslands. Mr. 
Chairman, over the past several years, your support and that of Senator 
Bingaman and other members of the Subcommittee have provided a focus on 
natural resource management today. This is especially true for the 
support you have shown for the HFI and HFRA.
    The overwhelming support for the HFRA in Congress underscores the 
importance of this legislation across the Nation. The passage of this 
legislation shows the American people that Congress and the 
Administration are working together to combat hazardous fuels buildups, 
insect and disease infestations, and other threats to the Nation's 
forests and grasslands. Through the HFRA, Congress has also provided 
Federal land management agencies with additional tools to improve the 
condition of watersheds, as well as fish and wildlife habitat; enhance 
grazing allotments; and utilize biomass from forest lands, which may in 
turn provide local communities with new, and often needed, economic 
opportunities.

                       HEALTHY FORESTS INITIATIVE

    In reflecting the President's Healthy Forests Initiative, the 
fiscal year 2005 President's Budget places increased emphasis on 
protecting communities and property from the effects of catastrophic 
wildfire. The President's Budget provides funding for many activities 
that support forest health, including $760 million for activities in 
the Forest Service and the Department of the Interior that directly and 
visibly will result in protecting communities and restoring watersheds 
through the reduction of hazardous fuels. With this funding and by 
working together, the Forest Service and Interior bureaus will be able 
to treat more acres more quickly. Much of the coordination for these 
activities will come about through the 10-Year Cohesive Strategy and 
Implementation Plan, in which Federal, State, tribal, and local 
partnerships have formed a foundation to improve the protection of 
natural resources and communities.
    Some of the key aspects of the HFI include administrative 
initiatives that help expedite projects designed to restore forest and 
rangeland health. These efforts include new procedures, provided under 
the National Environmental Policy Act, to allow priority fuels 
reduction and forest restoration projects identified through 
collaboration with State local, and tribal governments to move forward 
more quickly. Guidance from the Council on Environmental Quality has 
helped to improve environmental assessments for priority forest health 
projects. As a result, the Departments of Agriculture and the Interior 
have developed 15 pilot fuels projects using this guidance and have 
completed the assessments on 13 of the 15 projects. Another improvement 
to the administrative process has been early and more meaningful public 
participation in the planning and implementation of forest health 
projects.
    Let me provide some examples of what can be accomplished with the 
new authorities. Due to its mountainous topography, the Gila National 
Forest in southern New Mexico has the highest fire occurrences in the 
State. Dense stands of mature trees and a continuing drought have 
combined to create a very dangerous wildland fire situation that 
threatens local communities and wildlife and fisheries habitat. In the 
summer of 2003, the Gila National Forest successfully used expedited 
administrative processes to complete planning on four categorical 
exclusions under the Healthy Forests Initiative. The four projects 
total 510 acres. All of the projects will reduce hazardous fuels by 
removing trees mechanically and using prescribed fire. Small diameter 
non-commercial trees will be chipped or piled and burned. Since some of 
the projects are located in and around communities, this effort will 
afford additional protection to the communities, which may be the 
difference that avoids disaster during a wildland fire.
    In Arizona, the benefits of stewardship contracting authority, 
which was significantly enhanced under HFRA, will be realized through a 
10-year project on the Apache-Sitgreaves National Forest. The White 
River stewardship project, which will start this spring, includes 
multiple treatments over a 150,000-acre area. The project will use the 
full stewardship contracting authority authorized in HFRA, thereby 
reducing costs of current contracting methods by one-half to two-
thirds. The project has the full support of the Governor, county 
commissioners, and local officials.
    The administrative relief provided in the Healthy Forests 
Initiative made possible the planning and implementation of these 
projects in the same year, thereby allowing projects that are essential 
to protecting communities to proceed as quickly as possible. HFI is 
helping to decrease the wildfire threat to communities in a timely 
manner and promote a healthier forest. I firmly believe that over the 
long term, the reduction of hazardous fuels in priority areas through 
efforts supported by the HFRA will be the single most important factor 
in reducing the cost of wildfire suppression.
    With Federal wildfire suppression costs exceeding $1 billion in 3 
out of the last 4 fiscal years, this factor alone makes passage of the 
HFRA an important accomplishment. The fiscal year 2005 President's 
Budget also reflects a continued commitment to containing wildfire 
suppression costs by including cost containment performance measures 
and implementation of actions called for in the fiscal year 2004 
President's Budget, including a study of the use of aviation resources 
on large fires. An emphasis on the accountability of line officers and 
incident commanders also will be continued.

                          CLEAN AUDIT OPINION

    Now I would like to address the second issue, which is the 
``clean'' audit opinion the Forest Service recently received. This is 
the second unqualified opinion in the last 2 years for the Forest 
Service, after many years of financial accountability problems. The 
Forest Service and the Department are working to ensure that timely, 
reliable financial information is provided in which the receipt of a 
clean opinion is a byproduct of an efficient and cost-effective 
financial management organization and system sustainable in the long 
term. Chief Bosworth can be justifiably proud of the accomplishment of 
two clean audits, although as I noted last year, it is the minimum the 
public should expect. However, as he will tell you later, achieving 
this opinion required a Herculean effort by Forest Service employees 
that cannot be sustained with the organization that is currently in 
place. This effort was highlighted in the USDA's Office of Inspector 
General's Audit Report for fiscal years 2003 and 2002, which stated 
that the Forest Service does not operate as an effective, sustainable, 
and accountable financial management organization. This illustrates 
additional work on business process design, operation, and control 
needs to be undertaken to address the reportable conditions and 
material weaknesses indicated in the fiscal year 2002 and fiscal year 
2003 audits.
    With this in mind, there are two imperative objectives the Forest 
Service will be facing this year: sustaining the clean audit opinion 
for fiscal year 2004 and, even more importantly, addressing the 
underlying financial management infrastructure challenges the Forest 
Service faces by building a highly reliable and cost-effective 
financial management organization. A massive effort to meet the fiscal 
year 2004 accelerated and congressionally-mandated audit deadline of 
November 15, 2004 is already under way. The approach being used is 
different than those used in the past, in an effort to find and address 
financial accountability problems as early as possible. In addition, 
the agency is taking steps to consolidate and centralize operations 
where feasible and practicable in order to make a more efficient and 
cost-effective organization. I know Chief Bosworth is committed to 
implementing reforms that will ensure the continued trust of the 
American taxpayer and the most efficient administrative organization 
possible.

                               CONCLUSION

    Mr. Chairman, in closing, let me emphasize the importance of the 
fiscal year 2005 President's Budget for the Forest Service. We have 
great opportunities and challenges ahead. Due to the support of 
Congress for the Healthy Forests Restoration Act, we can pursue a 
strategy for returning our Nation's forests and grasslands to a healthy 
state. As you know, this will take time, but with the continued support 
of your Subcommittee and Congress, we will be able to see significant, 
sustained progress in that direction and will ultimately reach our 
goal.
    I look forward to working with you in implementing the agency's 
fiscal year 2005 program and would be happy to answer any questions.

    Senator Burns. Thank you very much, Mr. Secretary. And I 
plan to be at that celebration to cut the tape in the second 
100 years.
    Anyway, Hank, I am sorry I did not introduce you. I looked 
past you. Welcome this morning. We appreciate your good work. I 
know it has been some of your good work that has turned up the 
good audits. So I appreciate that very much.
    Chief, we can hear from you now.

                 SUMMARY STATEMENT OF DALE N. BOSWORTH

    Mr. Bosworth. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Dorgan; I do appreciate the opportunity to be here. What I have 
is a prepared statement, but I want to do a very brief summary 
and then I will get into answering questions.
    As Under Secretary Rey said, next year is our 100th 
anniversary in the Forest Service. That means that we have 
spent 100 years now managing the national forests and the 
grasslands. We have spent 100 years doing what I believe is 
world-class research, providing that to people all over the 
United States and the world. We have had 100 years of assisting 
States and private lands with their forestry issues and 
problems.
    Over that time, priorities have adjusted and shifted and 
funding has changed, and we expect that that will continue. But 
one thing that has remained: our guiding principle is 
conservation. Throughout those 100 years, conservation has been 
our principle and it will continue to be our principle in the 
future.
    We were founded in part because there was an awful lot of 
short-sighted destruction that was occurring on the forested 
lands of the United States. People at the time believed that an 
organization such as the Forest Service should stop some of 
that destruction and be in charge of managing these national 
forests. I believe my predecessors have done a good job of 
taking care of the national forests and grasslands over the 
past 100 years. In fact, that is probably why we have about 230 
million recreationists that want to visit the national forests 
every year, and that will be increasing.
    On occasion, when I read the newspapers I come to wonder if 
people do not think that maybe Forest Service people are the 
greatest threats to the Nation's forests and grasslands. In 
fact, I think our Forest Service people are not the threat, but 
they are the protectors of the national forests and grasslands.

                            HAZARDOUS FUELS

    But we do face four great threats and I want to mention 
those briefly. The first of those is one that we talk about a 
lot, and that is the unnatural accumulation of fuel in our 
forests and the resulting catastrophic wildfires. I will not go 
into that any more because we spend an awful lot of time 
talking to that.

                            INVASIVE SPECIES

    But the second one, the second great threat in my opinion, 
is invasive species, invasive species all across the country: 
leafy spurge as you have got there, spotted napweed, kudzu, and 
salt cedar, or tamarisk. Then there are insects and diseases, 
things like emerald ash borer that has taken out the white ash 
in Michigan, and hemlock woolly adelgid in the Northeast. These 
are a major problem for us.
    Before I move on, I would like to just respond to the leafy 
spurge there and put a picture up, just because I know you are 
going to be leaving pretty quick, and show you a place in the 
Medora Ranger District on the Dakota Prairie grasslands. On the 
left are the yellow fields of leafy spurge and on the right is 
that same area about 3 or 4 years later, that was treated with 
flea beetle that has pretty well wiped it out. I mean, it is an 
amazing contrast in my opinion.
    There is another picture that I would like to put up that 
shows some cooperators working together with the Forest 
Service. It looks like they have butterfly nets running out 
through the woods, but actually they have flea beetle nets. 
They are catching flea beetles and then they contain those, and 
take them out to other places.
    Senator Burns. Could I inject something here? Was that the 
work that was done in Sidney, Montana?
    Mr. Bosworth. Some of that has been done there.
    Senator Burns. No, but I mean the first research on that?
    Mr. Bosworth. There was research that was done there around 
Sidney.
    Senator Burns. I think these fleas attack leafy spurge. 
They have got another one that attacks spotted napweed.
    Mr. Bosworth. That is right.
    Senator Burns. By the way, for the folks that are here 
today, that is a joint effort between North Dakota and Montana, 
the Sidney Research Station in Sidney, Montana, which is over 
on the North Dakota border. We tried to move it a little more 
west, but that is between North Dakota State University and the 
cooperators there. They are doing some good work up there.
    Mr. Bosworth. Again, I think that demonstrates some hope in 
trying to deal with and take care of some of these invasives. I 
had hoped to bring a little vial of some of these flea beetles 
with me so I could have them attack your leafy spurge if you 
brought one today, but I could not get any in time to get them 
in here.
    Nevertheless, they are working well and we have high hopes 
that they will continue to work well.
    Senator Dorgan. That is the way it is in the wild, Chief. 
There is more leafy spurge than flea beetles.
    Mr. Bosworth. That is right. We are hoping to level that 
out some.

                           LOSS OF OPEN SPACE

    The third great threat in my opinion is the loss of open 
space. In particular, I am talking about some of the ranch 
lands and some of the forested lands that end up being 
subdivided and turned into ranchettes, particularly when they 
are adjacent to national forests. Even when they are not, we 
end up losing some of the biodiversity across the landscape 
that we need for deer and elk and other species. So I am 
concerned about that and the results of what that might mean.

                          UNMANAGED RECREATION

    The fourth threat in my opinion is the threat of unmanaged 
recreation. I am particularly concerned when I talk about 
unmanaged recreation about off-highway vehicles and the damage 
that can come from unmanaged off-highway vehicles. My view is 
that we need to do a better job of managing that use so that 
people in the future can have a good place to recreate on the 
national forests and so that they do not also damage some of 
the other valuable aspects of national forests.

                        COLLABORATIVE PROCESSES

    We are modernizing our processes. We are changing our 
processes. In some cases, we take some heat for that. We are 
trying to get our processes modernized so that we can engage 
people in a collaborative way at the community level up front 
as we are making these decisions, so that we can have people 
working together with Forest Service employees to come up with 
solutions that will be much more effective.
    We are spending more time on the ground; part of the 
purpose of changing these processes is to get work done on the 
ground.
    I would like to respond to one last thing in terms of the 
general administration costs that we have that Mr. Dorgan was 
concerned about. I agree with you that we have to cut our 
overhead costs. We are looking at, for example, centralizing 
our financial management processes into probably one area to 
cover all the country. My hope is that we will save $30 to $40 
million when we do that. It will be a little controversial and 
you will probably get phone calls from people when we start 
moving some folks in some of the locations. But we have to cut 
our costs. We have to cut overhead costs and we will continue 
with that.

                           PREPARED STATEMENT

    Finally, I would just like to say that I have been with the 
Forest Service now for 38 years and my father worked for the 
Forest Service about 34 years. So together we have probably 
been with the Forest Service for at least two-thirds of its 
history, and I am very proud of that.
    But I am more proud of the opportunity to be here today and 
to thank you for your assistance and your help with the Healthy 
Forests Restoration Act and the many other things that you have 
assisted us in that will help us to carry out the mission of 
the Forest Service in a better way. So thank you for that. I 
would be happy to answer any questions.
    [The statement follows:]

                 Prepared Statement of Dale N. Bosworth

    Mr. Chairman, Senator Dorgan, and members of the Subcommittee, 
thank you for the opportunity to discuss the President's fiscal year 
2005 Budget. I also want to personally thank you, Mr. Chairman and 
Senator Dorgan for the support provided to the Forest Service this past 
year in supporting the President's Healthy Forest Restoration Act and 
for the strong support in protecting America's forests and rangelands 
from the threat of catastrophic wildfire. I have seen first hand the 
interest both of you has shown in supporting the improved health and 
sustainability of forests and rangelands across multiple public and 
private ownerships.

                                OVERVIEW

    This President's Budget is for the Forest Service's centennial 
year. It supports the agency's mission of sustainable natural resource 
management. On February 1, 1905, President Theodore Roosevelt signed 
into law The Transfer Act, transferring the forest reserves from the 
Department of the Interior to the Department of Agriculture. On March 
3, 1905, the Appropriations Act for the Department of Agriculture 
referenced the ``Forest Service.'' On the day of the transfer, then-
Secretary of Agriculture, James Wilson, wrote a letter of instruction 
to the first forester of the Forest Service, Gifford Pinchot. He 
directed that:

``In the administration of the forest reserves it must be clearly borne 
in mind that all land is to be devoted to its most productive use for 
the permanent good of the whole people, and not for the temporary 
benefit of individuals or companies. Where conflicting interests must 
be reconciled, the question will always be decided from the standpoint 
of the greatest good of the greatest number in the long run.''

    Now, 100 years later, that advice encompasses the multiple use 
management principle that guides the Forest Service's program of work. 
We are here today to ensure that our nation's forests and grasslands 
are treasured resources for the benefit and enjoyment of all people now 
and in the future. The decisions made in formulating the President's 
fiscal year 2005 budget for the Forest Service are for the long-term 
good of the public and the resources that we are entrusted to manage 
for the American people.
    I am here to talk with you today about the fiscal year 2005 
President's Budget request for the Forest Service as we enter a new 
century of service to America. In 1905, the Forest Service spent just 
shy of $1 million total for the young agency. As we propose a budget to 
begin the second century for the agency, the President's request is 
$4.9 billion, $68.4 million greater than the fiscal year 2004 enacted 
budget, excluding emergency funding for repayment of fire transfers and 
funds for Southern California. The fiscal year 2005 Budget provides 
funding to reduce the risk of wildland fire to communities and the 
environment by implementing the Healthy Forest Initiative and the 
Healthy Forests Restoration Act (HFRA) which President Bush signed into 
law this past December. In addition, increased funds are provided for 
research, fire suppression, Forest Legacy, Forest Products, and 
Minerals and Geology.
    In my testimony today, I want to reflect on the challenges faced by 
the Forest Service in 2005, many of which are similar to those faced in 
1905. I want to discuss the new opportunities offered by HFRA that will 
result in improved forest and rangeland management, healthier 
landscapes, and reduced risk of catastrophic wildfires. I want to talk 
about four major challenges facing the Forest Service, which I often 
refer to as the ``four threats.'' I also want to highlight some other 
areas of performance accountability and legislative emphasis that 
comprise the President's fiscal year 2005 budget.
    As I talk with you today about the fiscal year 2005 budget, I am 
reminded of the challenges that the agency, Congress, and the American 
public have worked through and worked out over the past 100 years. A 
brief review of the land management issues of 1905 shows that issues 
were as contentious back then as they are today. The challenges that we 
faced today are still contentious and complex. I believe, however, that 
we have an opportunity to change the debate. We want the American 
people to judge us not on what is taken off the land, but how we have 
improved its condition after conducting natural resource management 
activities.

PROGRESS TOWARDS HEALTHY FORESTS AND GRASSLANDS--PROTECTING COMMUNITIES

    Today the cleanest water in the country comes from our national 
forests. More than 60 million Americans get their drinking water from 
watersheds that originate on national forests and grasslands. A century 
ago, competition for clean water in America was not the issue it is 
today and will be in the future. Protecting wilderness values wasn't on 
the radar screen 100 years ago. Today, we protect some 35 million acres 
of wilderness, about 18 percent of the land in our National Forest 
System. At the 1905 American Forest Congress, President Roosevelt spoke 
of vast forest destruction and an inevitable timber famine if the 
destruction continued. Large parts of the East and South were cutover, 
burned over, and farmed improperly. Today, tens of millions of acres of 
federal, state, and private forests in the East and South have been 
restored and the total number of forested acres is the same as 100 
years ago. A century ago, many animal and plant species were severely 
depleted or on the brink of extinction. Today, many of these species 
have made remarkable comebacks after finding refuge on our nation's 
forests and grasslands. A century ago, the profession of forestry was 
in its infancy in the United States. Early foresters used a much 
younger set of scientific principles in managing natural resources. 
Today, after 90 years of Forest Service research, we have a much firmer 
and broader scientific foundation for sustaining forest ecosystems into 
the future.

              REDUCING THE THREAT OF CATASTROPHIC WILDFIRE

    Today we are putting research-based knowledge to use in restoring 
the nation's watersheds to a healthy condition. The President's Budget 
provides $266 million, an increase of $33 million over the funding 
appropriated in fiscal year 2004, to reduce hazardous fuel. This will 
allow treatment of 1.8 million acres, an increase of 200,000 acres 
above the 2004 level. Over the past several decades, declining forest 
health conditions have led to an increasing incidence of 
uncharacteristically severe wildfire. Forests that are naturally 
adapted to frequent natural fires have gone many years without such 
fire, thus becoming overly dense and laden with fuels. These forests 
are at abnormally high risk to damage from wildfire as well as insects, 
diseases, or infestations of invasive plants. The President has acted 
to address this risk by establishing his Healthy Forest Initiative and 
providing a budget for hazardous fuel reduction that has more than 
tripled since fiscal year 2000. In addition, the Healthy Forests 
Restoration Act passed by Congress last year will bring new 
administrative initiatives that will compliment expanded stewardship 
contracting authority that will further reduce hazardous fuels and 
restore watersheds.
    Mr. Chairman, we need only look at how expenditures for wildland 
fire suppression have doubled in the last 10 years, to understand the 
need for this bold strategy. Just this past October we saw a graphic 
illustration of the serious forest and rangeland health problems we 
face. Although tragic in terms of loss of life and property, the severe 
wildfires in Southern California this past fall burned for the most 
part in mixed ownership chaparral areas and did not appreciably affect 
the forest health situation on forested lands in Southern California, 
particularly on the San Bernardino National Forest. In the forested 
areas, much of the remaining unburned acres are still choked with 
mostly small trees, many of which are dead and dying from drought and 
bark beetle infestations. Much of these forested lands are still at 
risk. Additional work remains on the national forests in Southern 
California as well as on other areas across the country that are 
experiencing serious forest health problems. Nor are these risks 
limited only to Federal lands. Mitigating the risks of catastrophic 
wildfires and treating forest health challenges across ownerships and 
jurisdictions requires cooperative action to be taken on the parts of 
governments, communities, private landowners and individual homeowners.
    Mr. Chairman, I want to thank you and the other members of Congress 
for working last year to pass the Healthy Forests Restoration Act and 
expanded Stewardship Contracting authority. The President's Budget and 
new authorities provided by HFRA will aid Forest Service field managers 
work with local communities to treat more areas more quickly than in 
the past. The President's Budget also recognizes the need to integrate 
the fuels reduction program with other programs that support wildlife 
habitat improvements, watershed enhancements, vegetation management, 
and forest products. Restoring and rehabilitating our fire-adapted 
ecosystems may be the most important task that our agency undertakes. 
To provide optimal wildfire risk mitigation across the landscape, we 
are prioritizing our hazardous fuels reduction work to ensure the most 
beneficial use of funds. We are moving from treating symptoms towards 
treating the underlying problems, and treating hazardous fuel in 
locations on our nation's forests and rangelands where they will be 
most likely to influence large-scale fire behavior. We expect this 
approach to restore forest health and significantly reduce the 
potential for large, damaging fires over the long term, as well as the 
costs of fires that do occur--both in terms of the taxpayer and the 
environment.
    We must also realize that it is not only the hazardous fuel 
reduction program that will improve overall forest and rangeland 
health. The integrated approach of multiple management activities in 
the agency's wildlife, grazing, vegetative management, and timber 
programs will improve the condition of the land, or in the Forest 
Service vernacular ``improve condition class.'' This emphasis 
encompasses one of the ``four threats'' I refer to in managing this 
agency. We are committed to accomplishing the aggressive treatments 
planned in the President's Budget for fiscal year 2005 using new 
authorities in the Healthy Forests Restoration Act that improve the 
condition class of the nation's watersheds and thus protect communities 
and resources for future generations--and our Research Station 
directors are committed to providing the Forest Service with the best 
science available.
    I have discussed in detail wildland fire, the first of the ``four 
threats.'' I will discuss elsewhere in my testimony the other three 
threats; invasive species, loss of open space, and unmanaged outdoor 
recreation. Before doing so, let me highlight other areas that will 
require our attention in our Centennial year.

          PERFORMANCE AND FINANCIAL MANAGEMENT ACCOUNTABILITY

    The Forest Service efforts to improve agency efficiency continue to 
focus on the implementation of the five initiatives in the President's 
Management Agenda (PMA). One key element of the PMA is improved 
financial performance. In the past few years we made an unprecedented 
effort to get our financial house in order. For a second year in a row, 
we received a clean audit opinion and made progress in reducing the 
number of material weaknesses from 6 in the fiscal year 2002 audit to 4 
in fiscal year 2003. The remaining material weaknesses are; need to 
improve financial management and accountability; accrual methodology 
needs strengthening; controls over certain feeder systems needs 
improvement; and Forest Service needs to improve its general controls 
environment. We look forward, in the not too distant future, to also 
seeing the agency removed from the General Accounting Office ``high 
risk list.'' I am proud of our financial management progress. To be 
candid, however, the effort made by Forest Service employees to keep 
the agency from falling into a type of financial receivership was so 
unprecedented that the agency cannot sustain this level of effort as we 
are currently organized. Our internal financial management and 
administrative support infrastructure is based on a 50-year-old model 
that is archaic. It does not operate within acceptable government-wide 
standards. It fails to use today's technology and business based models 
that can make our operations more efficient and our accountability the 
best it can be. With this in mind, the Forest Service will implement a 
new model for Forest Service financial management that involves 
significant centralization and consolidation of administrative support. 
We anticipate a minimum cost savings of $30-$40 million over time, 
although there may be some short-term costs incurred associated with 
setting up this model.
    We are also reengineering human resource management processes. Our 
objectives are to maximize automation, streamline processes, provide 
for consistency, and reduce overhead costs. At the same time, we will 
ensure compatibility with OPM's Government-wide initiatives.
    We will implement this overhaul without affecting the ability of 
field line officers to make decisions about natural resource 
management. We will continue to put considerable effort into improving 
the effectiveness of our financial management and administrative 
support program with the objectives of improving efficiency, reducing 
indirect costs, and dedicating funds to accomplish on-the-ground 
resource management objectives.
    An important tool that will help the agency improve its operational 
and program accountability is contained in the President's Management 
Agenda. It is the Program Assessment Rating Tool (PART). For fiscal 
year 2005, the Office of Management and Budget conducted reviews on the 
Forest Service's Forest Legacy Program, Land Acquisition Program, and 
reevaluated the Capital Improvement and Maintenance Program. This 
analysis recommended that the programs reviewed include the development 
of long-term measures that focus on outcomes, development of efficiency 
measures that assess the cost on a unit basis, and completion of 
program analysis to help focus program objectives and management.
    The PART process for fiscal year 2006 will assist the agency in 
addressing one of the ``four threats'' because the agency will utilize 
PART to evaluate invasive species activities. In addition to utilizing 
PART, the agency will use funds to address emerging threats to the 
nation's natural resources from the spread of unwanted pests and 
pathogens. The President's Budget proposes $10 million for an Emerging 
Pest and Pathogen fund to be used for quick response. We will integrate 
our National Forest System, State and Private Forestry, and Forest and 
Rangeland Research programs to ensure we are focused on this invasive 
species threat. I intend to emphasize line officer performance 
accountability for halting the spread of invasives as an important 
element of the performance appraisal process. The PART program will be 
a tool to ensure the effort is integrated, outcome-based, and properly 
focused.

                                RESEARCH

    I noted earlier that I felt the agency's Forest and Rangeland 
Research program was a foundation of improved ecosystem health. I am 
pleased to support an fiscal year 2005 President's Budget request that 
emphasizes a renewed focus on Research as a foundation for establishing 
management practices that are applied to the national forests and 
grasslands as well as state, tribal, local, and international lands. 
The total Research and Development budget for fiscal year 2005 is up 
$14.3 million.
    The President's fiscal year 2005 Budget recognizes that the demand 
for solutions based on research is exceptionally high, and the Forest 
Service should organize to optimize the delivery of information to 
provide solutions in the timeliest, accurate manner. To enhance the 
linkage between forest researchers and on-the-ground resource managers 
in both the public and private sectors, it is critical that the most 
efficient development and delivery of mission-critical information be 
employed. Enhancing the linkage between the information user and the 
information generator helps ensure this efficiency. The President's 
Budget provides additional funding for optimizing the transfer and 
implementation of research findings.
    Within R&D, $7.2 million is focused on research that will protect 
water quality for human use and aquatic habitat, and provide improved 
tools for land managers to restore native vegetation on sites disturbed 
by fire and mechanical means. This program increase will also afford 
the agency the opportunity to continue its research focus on controls 
for newly arrived insects including the hemlock wooly adelgid, the 
Asian long-horned beetle, invasive bark beetles, and the emerald ash 
borer. In addition to this significant program increase, the State and 
Private Forestry technology applications program will be integrated 
with the Research and Development mission area. We expect an improved 
technology applications program that focuses on a thematic basis, 
including applications in hazardous fuel utilization, fire science 
applications, invasive species, watershed, and other mission critical 
areas.

                         FOREST LEGACY PROGRAM

    The third of the four threats that I have emphasized involves the 
loss of open space. The President's Budget fully funds the Land and 
Water Conservation program, including a $35.8 million increase in the 
Forest Legacy Program. The program has seen great success in addressing 
the threat of reduced open space through the use of conservation 
easements in partnership with private landowners to maintain viable and 
healthy forested lands. The PART review of the program by OMB found 
that management of the Forest Legacy Program is valuable and generally 
strong. We will work to improve performance measures that track the 
percentage of priority forest lands at risk of conversion to non-forest 
uses that are currently in a contiguous forest condition.

                               RECREATION

    The last of the four threats to the nation's resources involves the 
challenges posed by unmanaged recreation. To use an old phrase, in many 
areas of the national forests we are ``loving our public lands to 
death.'' The fiscal year 2005 budget reflects an increase of $2.3 
million in the Recreation budget. With this in mind, I intend to have 
the agency focus on managing the program with improved efficiency and 
greater reliance on partnerships. Moreover, our work in the area of 
hazardous fuel reduction and invasive species provides a number of 
benefits that protect and enhance the quality of recreation on National 
Forest System lands.
    The Forest Service is a leading provider of outdoor recreation 
opportunities in the nation. People visited national forests and 
grasslands over 211 million times in fiscal year 2002. These millions 
of visitors expect cleared trails, accessible facilities, and safe 
experiences. They also cause significant impacts on the land and on our 
facilities, as they hike, camp, kayak, ski, hunt, or fish on our 
federal lands. Since 1997, we have relied on fees from the Recreational 
Fee Demonstration Program to provide safe, enjoyable, and memorable 
experiences for these millions of visitors. We know that without those 
fees, we would be hard pressed to keep some campgrounds open, toilets 
cleaned, and trails safely maintained. The President's fiscal year 2005 
legislative proposals include permanent authority for the Recreational 
Fee Demonstration Program. Visitor use continues to increase, 
especially near urban areas and many of the very special places we 
manage on our national forests and grasslands. As more and more people 
enjoy these places, their presence comes with the price of increased 
needs for maintaining facilities, equipment, and the land itself. 
Through the Fee Demo Program, the recreating public has told us how 
important increased safety and security is to them, an elevated service 
made possible through Fee Demo funds.
    This is the 40th anniversary of the signing of the Wilderness Act, 
a bold legislative action that secured the enduring benefits of 
wilderness for present and future generations. The Forest Service 
manages 32 percent of the National Wilderness Preservation System and 
was the first Federal agency to manage a designated wilderness area. 
The National Survey on Recreation and the Environment finds that 
Americans who know about wilderness tremendously value it.
    Our backlog in deferred maintenance for our facilities continues to 
be a challenge. This backlog includes facilities for providing 
recreation opportunities to the public, as well as our administrative 
sites where employees work and provide services to the public. The 
budget reflects improvements made by the Forest Service in implementing 
recommendations contained in a PART review of the Capital Improvement 
and Maintenance program, and includes $10 million to address deferred 
maintenance.
    In addition, there are important legislative proposals to be 
presented by the Administration that will help us leverage limited 
discretionary appropriations to accomplish key objectives of the 
recreation and other administrative programs. The Administration will 
submit legislation proposing a Facilities Acquisition and Enhancement 
Fund. This authority will provide a useful tool for reducing our 
administrative site backlog through an authorization to dispose of 
lands and improvements in excess of our needs, and use the proceeds for 
infrastructure improvements.
    The Administration will propose expanded and consolidated 
partnership authorities to make it easier and more efficient for third 
parties to get involved in the agency's recreation program as well as 
other management programs and activities. This legislation will 
streamline the ability of the Forest Service to collaborate with non-
Federal partners in achieving natural resource management goals. Forest 
Service directives cite over 30 different laws relating to partnerships 
and 14 different types of agreement instruments document partnership 
relationships. Navigating this complex patchwork of authorities and 
agreements has hindered the agency's ability to work efficiently and 
effectively with nonprofit and community partners. We look forward to 
working with Congress in making it more efficient to work with partners 
in managing the national forests.

                       WILDLAND FIRE SUPPRESSION

    As the Forest Service focuses on a new century of service to 
Americans, its emphasis will be centered on management activities that 
address the four threats and the goals of the Healthy Forests 
Initiative. Our success over the long term will reduce the risk to 
communities and natural resources from catastrophic wildland fire. The 
Forest Service, in partnership with the Department of the Interior and 
state and local agencies, is committed to protecting communities and 
resources with the best and most efficient fire fighting infrastructure 
possible.
    The total wildland fire budget for fiscal year 2005 is $1.4 billion 
including an $88.3 million increase over the fiscal year 2004 enacted 
level for fire suppression. This increase reflects the ten-year average 
cost for fire suppression. I want to address several important wildfire 
suppression issues.
    Wildfire suppression activities are dangerous. Unfortunately, last 
year we lost five lives in fires related to the Forest Service. The 
agency continually evaluates the fire suppression program for safety, 
and makes improvements to reduce the risk to firefighters. After the 
Thirty mile fire in 2001, the Forest Service implemented a number of 
significant changes to improve safety measures for firefighters and the 
public. Changes were developed in cooperation with OSHA, the Department 
of the Interior, and other interagency partners through the National 
Wildfire Coordinating Group. We have clarified and added emphasis on 
fatigue awareness and work/rest guidelines; added driving guidelines 
for transportation safety; and improved risk assessment and mitigation 
procedures. We continue to scrutinize our firefighting program to make 
additional safety improvements, including an examination of relation of 
completed fire management plans and the deployment of incident 
personnel in locations where resource values are minimal. Areas we are 
particularly concentrating on are human factors such as experience and 
leadership. While we will never remove all the risk from firefighting, 
we will constantly work to reduce the risks. We must never compromise 
our emphasis on components of the agency's budget that might affect the 
safety of our workforce.
    This past year we have aggressively focused on reducing the costs 
of firefighting efforts. The President's budget proposes new incentives 
for reducing wildfire suppression costs including the allocation of 
suppression funds to Forest Service regions, and the authority to 
retain unexpended suppression funds for use in forest restoration 
activities consistent with the goals of the Healthy Forest Initiatives 
and HFRA. It also includes the establishment of clearer rules 
concerning the use of suppression resources and incentives for rapid 
demobilization and better use of local non-federal resources. I am 
proud of the fact that in fiscal year 2003 we kept more than 98 percent 
of all unwanted fires that started from becoming large fires in 2003. 
While large fires represent only 2 percent of the total number of 
fires, over the past few decades they have accounted for more than 87 
percent of the total costs for fire suppression. Many large fires are 
complex and more expensive to suppress today than 20 years ago, and 
they can be more dangerous. The costs of containing fires in the 
wildland urban interface will likely continue to be high as we struggle 
to keep fire from destroying people's homes and livelihoods. At the 
same time, the President's fiscal year 2005 Budget reflects the full 
implementation of fire management plans completed for all National 
Forest Systems lands that will allow for cost savings associated with a 
full range of suppression actions, including an increased use of 
wildland fire use fires, as appropriate. It also contains new 
performance measures that will provide baselines on which the total 
cost of fire suppression can be assessed.
    Over the past year, we have completed the Consolidated Large Fire 
Cost Report 2003, in which we have identified areas to contain costs. 
Clearly, reducing the number and improving the way we manage large 
fires will lead to lower costs. I have issued policy direction that 
states, ``Fires are suppressed at minimum cost, considering firefighter 
and public safety, benefits, and values to be protected, consistent 
with resource objectives.'' We will take the lessons learned from the 
past year and continue efforts to reduce the costs of large fires. We 
will also look at better ways to use fire in its natural role and will 
work together with our Federal, Tribal, State, and local partners to 
accomplish these goals.

             CONCLUSION: ENTERING A NEW CENTURY OF SERVICE

    Our agency's 100th anniversary is a time for us as an agency to 
reflect on our history, the contributions we have made as stewards of 
our nation's natural resources, and lessons we have learned to provide 
world-class public service into the future. We see fiscal year 2005 as 
a time to broaden public understanding and appreciation of our nation's 
forests and grasslands, and a time to broaden partnerships worldwide to 
collectively sustain our natural resources. In this centennial year we 
will sponsor several events and activities that help focus this 
attention.
    Mr. Chairman, let me say again how honored I am to be here as Chief 
presenting the 101st President's Budget for the Forest Service. We have 
100 years of amazing accomplishments. We also have 100 years of 
promises to keep, 100 years of laws and regulations to uphold. For 100 
years, Americans have both applauded us and picketed our doors. The 
country has seen sweeping changes over those 100 years, and many 
innovative tools to help us keep up with those changes.
    As we enter our second century of service, the continued prosperity 
of our country is in large part dependent on sustaining the health, 
diversity, and productivity of our Nation's forests and grasslands. 
This is the Forest Service's mission today. And much as Secretary 
Wilson directed the agency in 1905, our successes are only as great as 
our ability to act under a businesslike structure, promptly, 
effectively, and with common sense. I am proud of the many 
accomplishments our talented and dedicated employees have given to this 
country and the mission they face in entering this new century of 
service.
    We still have much work to do and many challenges to undertake. 
Restoring the nation's forests and grasslands in balance with society's 
goals will take time. We have new tools to help meet those challenges 
in the Healthy Forests Restoration Act and expanded Stewardship 
Contracting authority, in continued research to support these complex 
challenges, and through the work we continue to do with local 
communities and partners--new ways of solving land management problems 
in more effective and inclusive ways.
    I enlist your continued support and look forward to working with 
you toward that end. I will be happy to answer any questions.

    Senator Burns. Chief, thank you. Let me also congratulate 
you. You started this process. I think it was you that coined 
the phrase ``paralysis by analysis.'' You are now making some 
decisions and have some information that you can use to move 
forward in restructuring and bringing the true emphasis on our 
forests, what really works and what does not work.

                              CONSERVATION

    When you use the word ``conservation,'' I would imagine you 
and I graduated from the old school that the definition of 
``conservation'' was the wise use of a renewable product. I 
think as long as we define it in that way, whenever we see 
conflicts of management or conflicts of ideas it usually boils 
down to definitions, how we define our words.
    So I have always been--up here you learn that pretty 
quickly, and especially with policymakers, that definitions are 
everything. But I do not think we should leave the old. I think 
the old definition of conservation was pretty well defined--the 
wise use--and we have used it in agriculture a long time. I 
know sometimes they think they should move the Forest Service 
out of the Department of Agriculture, but I do not think it 
should be. It is a wise use of a renewable resource.
    In some areas we have been wrong, but we have been wrong 
before and we know how to correct those and identify them and 
pay attention to our history. If we pay attention to our 
history we solve a lot of those problems.

                       EFFECTS OF FIRE BORROWING

    The increasing costs in firefighting has forced the Agency 
to borrow massive amounts of money from other non-fire 
programs, causing many projects to be cancelled or delayed. I 
applaud your proposed budget increase for $88 million for fire 
suppression. We know that if you have a season that is anything 
like the average of the past few years, you will still be a 
considerable amount of money short.
    Can you just outline for us, if you could, the problems you 
face whenever you have to borrow from other accounts, 
especially the huge amounts of money that we have experienced 
in the last 2 or 3 years?
    Mr. Bosworth. Well, usually when we get in a situation 
where we have to transfer dollars from other accounts it 
occurs, of course, in the fourth quarter of the fiscal year. At 
that point, we pretty well have our field work laid out. We are 
ready to go get the work done, and then of course when we 
transfer those dollars, we have to stop many of those projects.
    I can give you a very quick list of some of the effects 
from fire transfer impacts from last year. We ended up with 10 
percent less timber offered, we had 20 to 25 percent less 
wildlife habitat restoration accomplished, a significant 
shortfall in grazing allotment NEPA work, 30 percent less 
accomplishment in vegetation management, 150,000 acres less 
fuels treatment, 200 construction projects deferred, 60 land 
acquisition projects deferred, some research delayed, some 
forest inventory analysis delayed, and $8.5 million in legacy 
projects that were delayed.
    Some of those we will be able to pick up in the next year 
and so on, but they were not done on time.
    The biggest thing that bothers me perhaps as much as 
anything is the effect it has on our partners. We are trying 
more and more to work together with people in a partnership 
way. The biggest frustration is when we have partnership 
agreements, the folks that we are working with come to the 
table, and then we come to the table at the last minute and 
say: Guess what, we cannot do our part.
    It becomes very, very difficult to maintain good 
relationships and good partnerships when at the 11th hour we 
pull out. But those are some of the impacts. I can be more 
specific and give you more information for the record if you 
would care for it.
    Senator Burns. You know, that is an interesting thought, 
though, your partners. I think basically they probably 
understand the problem. Have relationships deteriorated to 
where it is difficult to do business with them again?
    Mr. Bosworth. Well, in some cases when people think that 
this is going to continue to happen, they end up looking for 
somebody else to partner with that they think might be a little 
bit more reliable. I believe when we end up with some kind of a 
long-term fix for this, I hope we will be able to get our 
partners back.
    Another effect is matching funds; sometimes when we use 
challenge cost-share agreements--we do a lot of work with 
organizations like the Rocky Mountain Elk Foundation--we will 
have some matching funds and then we when do not bring our part 
to the table, we lose those matching funds to some other place. 
Sometimes they will come back, but sometimes we do not ever get 
those matching funds back.

                       FIREFIGHTING COST ANALYSIS

    Senator Burns. I was in a couple of fire camps last year, 
as you well know, and visited with your leadership and was on 
the ground out in Montana, especially the fire in Glacier 
National Park. Chief, have you done anything to make a special 
assignment of anybody or any part of your organization to 
analyze and see how we can be more efficient in our 
firefighting? Because I think when you look around a fire camp, 
you see a lot of waste. That happens whenever you are under 
emergency conditions; I understand that. But have we done any 
analyzation of how we fight, when we fight, and what it takes 
to fight?
    Mr. Bosworth. Well, there are a couple of things. Let me 
start off by just talking about cost containment. Last year we 
instituted a number of cost containment measures, and then we 
have added a few more for the next year. Let me just run 
through those first.
    Of course, we were very concerned, as you are, about the 
rising cost of our fires. So we instituted some national-level 
review teams that report to me essentially. They go out to some 
of these major fires while the fires are burning and they 
review the decisions that are made, particularly as associated 
with costs.
    We also have some regional review teams working. We have 
some post-incident teams that go out and review a fire after it 
is over and we look at all the costs. Those teams are looking 
at that to try to find how that is going.
    The Wildland Fire Leadership Council is made up of the 
heads of all the wildland firefighting agencies, Under 
Secretary Rey, and one of the assistant secretaries at 
Interior. We have chartered a blue ribbon panel to look at cost 
containment across the board and to give us some advice. They 
are working with the Western Governors Association.
    Also, the President's budget proposes to allocate 50 
percent of the fire suppression dollars to the regions, with 
the idea that it would be an incentive. If they do not spend 
those dollars, then those dollars could be used for other kinds 
of projects like fuels treatment. And that is a very big 
incentive to our folks because our folks like to get work done 
on the ground.
    We also have directed all line officers and incident 
managers to do what we call an escape fire situation analysis 
whenever a fire escapes initial attack to look at alternative 
suppression strategies. We have directed them to develop a 
least-cost fire suppression strategy and to give that 
significant consideration.
    Another thing that was brand new last year was, with our 
enhanced or our improved financial management, we now have 
real-time cost accounting information for each individual fire. 
So every 24-hour period we can tell exactly what that fire has 
cost, what those cost centers are, how much, and where.
    In the past, it would be 2 or 3 weeks before we could do 
that. So that is another area that will help us get a handle, I 
believe, in terms of our costs.
    Senator Burns. Well, you know, I sat in on a couple of the 
meetings. They allowed me in there--and I appreciate that very 
much--on how they operate and areas of responsibility in 
Kalispell. I was impressed because your comptroller, the guy 
that was in charge of the money and the accounting, sat right 
there and he said: We cannot do that; we have got to move this; 
and these are the dollars that we have used now, this is our 
allocation.
    Sometimes under those conditions it is kind of hard to do 
business. In other words, maybe you would like to do something 
that day, but yet maybe you might not expend the money so you 
did not overrun the tape, so to speak.

                            FIRE SUPPRESSION

    Also, I hear criticism--and this is a criticism and you 
might want to respond to it--when a fire is first detected, we 
just do not get people on the ground and hit it while we can. 
In other words, there has been criticism that some fires were 
allowed to smolder for a while and then all at once blow up and 
create an even larger problem.
    Can you respond to that criticism?
    Mr. Bosworth. Yes, I would be happy to. First I would like 
to put another chart up on the wall there. We have continued to 
suppress about 98 percent of the fires in initial attack and 
keep them less than 300 acres. So in terms of that criticism, 
we suppress 98 percent. In some cases, as you know, we will end 
up with lightning strikes and we can have a couple hundred 
fires, 200 or 300 fires on a forest, start in one lightning 
storm.
    My belief is that it is going to be tough to get to 100 
percent. Maybe we can get up to 99 percent. But I believe that 
is working fairly well.
    On this chart you will see that, the purple there is the 
small fires, and then 2 percent of them get out in that darker 
color, meaning they escape initial attack. So you can see from 
the circles over on the right that 87 percent of our 
suppression costs are within that 2 percent of the fires. So 
only 13 percent of our suppression costs are on that other 98 
percent.
    In terms of acres burned, 96 percent of the acres burned 
come from that 2 percent of the fires that escaped initial 
attack. So it is extremely important from just a cost and a 
damage standpoint that we do as good as we can in nailing those 
fires in their initial attack.
    Mr. Rey. In addition to that, when we fail to succeed at 
initial attack and we end up in a large incident fire, one of 
the factors that we review when we do a cost review of that 
large incident fire are the circumstances associated with 
failure to control the fire at initial attack. What I have 
found in the incidents that I have looked at--in all honesty 
because of member interest--where we failed at initial attack 
is that there was usually a reason associated with the limits 
of the technology, the equipment we had, or safety concerns 
that precluded a more aggressive initial attack response.
    The quintessential example was the fire in San Diego this 
summer, where fire was reported right about dusk and we were 
criticized for not scrambling our tankers at that point. Well, 
our tankers are not equipped with night-flying vision. The 
worst and most hazardous time to fly those on bombing runs is 
at dawn or at dusk, because they are flying at low elevation 
with the sun often right in the pilot's eyes. You make those 
safety requirements for a reason and you do not deviate from 
them just to save a few dollars.
    That has been my personal experience in reviewing the 
specifics of some of those criticisms in individual incidents.
    Senator Burns. Well, I would recommend--of course, I was in 
a couple of them way back in the old days--that you have got to 
go experience a fire camp now and then. Now, not everybody is 
going to have the opportunity to sit in on the morning briefing 
or even the evening debrief, as you well know, but that is 
where you learn quite a lot of things.
    So we continue to worry about fire suppression and fire 
prevention, first responder and first response. We will 
continue to worry about that. I would suggest, just from a 
standpoint of up here, that we continue to look at those fire 
suppression costs and do some things.
    I know, Chief, when you were in my office we talked about 
that in the old days you fought fires at night. Now, we lost a 
couple of people and maybe we should not have, the Edith Peak 
Fire being one of them, way back when. You would take the fire 
on when it is the weakest. It is at night; that is when it is 
the lowest, that is when it is the coolest. And if you do not 
get it by then, at 10 o'clock the next morning, or whenever the 
drafts start, then you are lost. You might as well go twiddle 
your thumbs and play gin rummy or something. But you just 
cannot, especially with these fires.
    It just seems to me the intensity of these fires now are 
just beyond belief. You know, on Glacier up there, you watch 
the intensity of those things and watch them go up a 
mountainside. I tell you what, I have never seen fires moving 
like that, not in my lifetime anyway. So we continue to look at 
that.

                                GRAZING

    Well, let us shift away from fire and the challenges that 
it has a little bit. We have other activities that go on in the 
forests. Of course grazing is one of those. By the way, he is 
not with us any more, but there was an old sheepherder out at 
Big Timber, Montana, who did his own kind of research. As you 
know, they are livestock people and people of the land do 
pretty good research. They are probably not recognized in the 
scientific community, but as far as the data being accurate, it 
is pretty accurate.
    In the forest where we had active grazing permits, we also 
did the best job in hazardous fuels removal and fire 
prevention, and lines are drawn on that. So I think grazing is 
a part of areas that become more vulnerable to that, because 
forest grazing takes care of a lot of the undergrowth.
    We have a real problem in the backlog of expiring grazing 
permits that need to be renewed. Congress put a schedule in 
place for the renewal of these permits in the 1995 Rescissions 
Act. Your budget justification says that you are only getting 
done about 50 percent of the work that you need each year. Can 
you give me a number of the backlog and how we are dealing with 
that backlog?
    Mr. Bosworth. We have had NEPA completed on about 36 
percent of the 6,900 permits at this point. We have a backlog 
of 4,590 as of right now. We are doing things to try to improve 
our approach; one of them is that we have redone or made some 
changes in our handbook that instructs the field on how to do 
the NEPA on allotment management planning to make it more 
efficient, to make it more collaborative with the permittees, 
and to allow us to get some decisions made quicker.
    We are trying to improve our efficiency. We are trying to 
cut down our overhead, but we are significantly behind. The 
troubling part of this to me is that if we had a significant 
increase in dollars, that probably would still not solve the 
problem. It would help us; it would help us get done a little 
bit sooner than what we are going to get done anyway.
    I feel like we are putting an awful lot of money into doing 
an awful lot of paperwork, that in the end does not really 
affect or change the way the grazing is being done on the 
ground; it just results in having NEPA finished. We do an 
environmental impact statement and we have a whole bunch of 
alternatives, and then we end up making some slight 
adjustments. But we put a lot of money into pushing paper 
around, and it just seems to me that maybe there is a better 
way.
    Maybe we ought to be looking at some things like what you 
do on the Healthy Forests Restoration Act or some of those 
kinds of options that might help streamline and modernize some 
of the processes we are using for our allotments right now.
    Senator Burns. This question may be out of line, but if you 
did not have to do a full-blown NEPA, a full-blown EIS, and 
operate under an EA, would that help? I do not know that much 
about what you have to do on the ground, the hoops that you 
have to jump through.
    Mark, can you address that?
    Mr. Rey. That would probably help some. The other 
alternative would be to look at formulating a categorical 
exclusion for at least some number of the grazing allotment 
renewals where not much is going to change on the ground as a 
consequence of the renewal anyway.
    In 1995 when the Rescissions Act schedule was established, 
I was sort of sitting on your side of the dais and we asked the 
then-Chief of the Forest Service, Jack Thomas, whether the 
expenditure that was going to be invested in doing EIS's for 
all these grazing lease renewals was going to result in on-the-
ground range improvements, and his general response if I 
remember it correctly--and I will paraphrase it and we can go 
back and look at the transcripts--was that we would get a lot 
more on-the-ground improvement if we invested that money in 
range improvement work as opposed to just renewing NEPA 
documents for at least those allotments where not much has 
changed and all we are doing is renewing an allotment because 
we have hit a statutory or a regulatory deadline.
    I think an EA would help for at least some number of those, 
those 4,800 renewals that are not going to change very much. A 
categorical exclusion would probably help a lot more, 
particularly if we were able to reinvest that money in range 
improvement work.
    Senator Burns. I will tell you that, on an assessment of 
range country the other day, even though we have been through 
drought areas, range and forest grazing permits have never been 
in this good of a shape. They are basically taken care of by 
the people who are leasing the grass. So you may have a point.
    I will have to go back. I had forgotten about the Jack Ward 
Thomas statement and I am glad you recollected that. We will 
take a look at that, and we will also look at the categorical 
exclusion end of that. I think some of that does have merit 
whenever we start managing our resources.

                        STEWARDSHIP CONTRACTING

    The Congress has provided you with many new authorities 
during last year, including the expansion of the Stewardship 
Contracting program, in the passage of the Healthy Forests 
Restoration Act. The Agency has also put in place through 
regulations several new categorical exclusions to help speed up 
fuels reduction and timber salvage.
    Chief, can you tell us if these new authorities have helped 
you address the problem, and the implementation of these acts--
give us a progress report?
    Mr. Bosworth. In terms of stewardship contracting, first I 
would like to just say again thank you for your help in getting 
us the stewardship contracting pilot authority, going back to 
1999. You have been a real champion in terms of stewardship 
contracting to help us with that. We have experimented with 
that over the years and now we have the extended authority.
    We awarded 49 contracts in fiscal year 2003. We expect to 
have 60 just in this coming year, in 2004. So we had 49 that we 
are working on and then 60 more this year.
    I think the extended authority has made a big difference 
because it has told a lot of people that this is a little more 
permanent. While it was still in the pilot stage, we had an 
awful lot of work to do with potential contractors, with people 
who might come in with proposals or bids, and not everybody was 
anxious to take the time to learn how to make those kind of 
bids.
    Now that they see that it is a tool that will be used more 
widely and for a longer period of time, there is a whole lot 
more interest. So I would expect that we will have a bunch more 
of those coming along and we will see some real successes. So I 
will be anxious to see some more on the ground, where we will 
be able to go out and maybe take a look at them. Perhaps you 
would be interested in seeing some of those.

                         CATEGORICAL EXCLUSIONS

    In terms of categorical exclusions, we have a number of 
different categorical exclusions that we have gotten authority 
to use over the last probably 9 months. We have about 560 of 
those that we have completed since then or that are ongoing 
since then. Now, not all of those are for fuels treatment. They 
are for a variety of things. I would guess probably half of 
them are for fuels treatment, and there are a number of other 
ones that we are also doing.

                           FOREST MANAGEMENT

    Senator Burns. When you look at all of these things that 
have been done--we know that we have mills in trouble in our 
part of the country. There are a number of mills in the wood 
products business that keep going the other way; that is, 
failing because of lack of wood. I was interested--this last 
weekend, the Senator from Georgia accompanied us into Montana. 
He had never been to Montana before, and we were looking at 
some regrowth areas in the Gallatin National Forest. He does 
not ski and I do not ski and this was a ski outing. I had a 
fundraiser up there. That looks good on the tape. But anyway, 
it was pretty unstructured. I used to ski. I have only been on 
them once and I wiped out a whole platoon of Marine Corps, and 
I kicked them damn things off and I have not had them on since.
    But nonetheless, we went on a little jaunt, and we started 
talking about regrowth and things that are happening in the 
forest, took a snowmobile trip into Yellowstone Park, seeing 
the regrowth that is happening there after the devastating 1988 
fires.
    It is something to see, people who have forests in their 
States, how they manage against how we manage. Of course, their 
rotation on a mature tree is much shorter than ours, as we 
know. But it was also interesting to know; they said when they 
replant a forest where they are in the South, they get growth 
and then they use what they take out when they thin the forest; 
that goes to pulp. That gives way to the trees that will 
finally end up in lumber.
    We have had a difficult time in doing that. That is usually 
on private lands, privately managed lands. We have had a 
difficult time selling the idea on public lands that that sort 
of a management situation does work. Maybe it is a longer cycle 
from a seedling to a mature tree than they have in Georgia, no 
doubt. But nonetheless, the principle is about the same.
    We still have a difficulty of selling the public on the 
idea that those management practices work. I think that is one 
of the challenges ahead of us, that just because we thin, that 
that is a lost product; in other words, it is wasted. It is 
not. The taxpayers get paid for it, actually.

                           EDUCATION EFFORTS

    So I think we need a little more outreach to the public, 
public education. Can you tell me what you have done in that 
area? It is a constant education of the public of how we manage 
their forests and why we do certain things.
    Mr. Bosworth. Well, we do have conservation education 
programs, a number of programs, particularly at the local 
levels, with folks to try to help people understand at least 
what takes place and what is going on, what the opportunities 
are.
    We also have some places where we have been experimenting 
on occasion with what we call collaborative learning, where you 
have people together from different points of view in a 
collaborative way, trying to learn on specific projects based 
upon their different values. We are also using the best science 
that we have available, so that people can learn together and 
be more informed about what the issues are and what the 
potential is.
    Of course, there is still always the difference of opinion 
about what they want their national forests to be managed for. 
There are definitely some places where we manage the national 
forests and produce timber, but then there are the places where 
people's preference is to have it, as you know, for wildlife 
purposes or for recreational purposes.
    So I think our challenge is again to try to find that 
balance through public participation, but at least to have as 
informed a public participation as we possibly can, where 
people are educated, as you say, as to what the potential is, 
what the results are, and what the consequence is.
    Senator Burns. Well, I say that because I walked into an 
elementary school and there was a big poster up there that 
says: ``When a tree is gone it is gone forever and the land 
lays barren forever.'' And that statement just stuck in my 
mind, and I said: Somebody has got to call on that school 
teacher; this is just not good information and it is not the 
way we should be teaching our young people about renewable 
resources and what this land really has.
    Mr. Bosworth. We also have programs in a number of places 
where we are working with school teachers, because that is 
perhaps the most effective way in the long run where we can get 
people informed on the facts.
    Senator Burns. Sometimes I have a hard time relating to 
those folks, so you know how that is.
    That is about all the questions. I think we kind of worked 
our way through the management part of it. I do want to 
encourage you to look at this, the waste and the way we respond 
to fires, and try to see if we cannot cut some costs there. But 
we do not want to be penny wise and dollar dumb either in those 
areas. As to your accounting, I want to congratulate you again. 
You have got a clean audit and I think your Department is for 
the most part doing a real job under very difficult conditions.
    If other members of the committee want to offer some 
questions, we will leave the record open; and if you would 
respond to the committee and to the specific Senators, we would 
appreciate that.
    Secretary Rey, good to see you again, and Hank, and all of 
you, and your leadership. I am just glad that we are in an area 
right now where I think there has been a lot of integrity 
restored back into the Forest Service. For the most part, the 
morale of the rank and file is pretty high, and I congratulate 
you for that. I talk to Forest Service people throughout my 
State, and we appreciate that. Relationships have improved, 
even though we have some areas where we could improve more. But 
nonetheless, that may boil down again to definitions.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

    Question. The Committee is concerned about the rising costs for 
firefighting. The average annual cost of fire suppression for the 
Forest Service over the last 4 fiscal years (fiscal year 2000-fiscal 
year 2003) has exceeded $1 billion. By way of comparison, in the 4 
years prior to that it was only $349 million. The Committee understands 
some of the factors that have raised these costs like: (1) the severe 
droughts in the West; (2) the expanding Wildland Urban Interface as 
more and more people want to live on the boundaries of our forests, 
parks and refuges; and (3) the poor health of our forests caused by 
years of inactive management.
    What, if anything, can the Forest Service do to reduce the 
skyrocketing costs of firefighting? (S&PF)
    Answer. The Forest Service has issued two reports that outline 
expectations of line officers, incident commanders, and employees in 
the area of suppression cost containment. We have standing cost 
containment oversight teams that visit large incidents and recommend 
actions that will reduce expenditures. We are developing a new fire 
planning system that will lead to better strategic analysis of large 
fires and the decisions that cause them to become expensive. We are 
developing a new situation analysis that will display a better range of 
suppression alternatives to line officers during their decision 
process. This will be accomplished by clarifying the definition of the 
least cost suppression alternatives within decision support models and 
establish this alternative as the default option for suppression 
activities for a given incident and by completing updated geospatially-
based fire management plans linked to databases that will lead to 
increases in the annual number and acres designated as wildland fire 
use fires. We are embarking on an aggressive fuel management program to 
rid forests of accumulated fuel. In addition, we will:
  --Implement priority cost containment activities called for in the 
        fiscal year 2004 President's Budget and the recommendations 
        contained within the Wildland Fire Management PART, as well as 
        select recommendations from the National Academy of Public 
        Administration (NAPA) report entitled, Wildfire Suppression: 
        Strategies for Containing Costs.
  --Reduce wildland fire suppression costs through a continued emphasis 
        on the accountability of line officers and incident commanders.
  --Review the cost-effectiveness of large fire aviation resources and 
        assess state cost-share agreements to ensure that the federal 
        government is not paying a disproportionately high share of 
        suppression costs.
  --Continue to conduct national cost containment reviews on selected 
        incidents and implement recommendations contained in the 
        Consolidated Large Fire Cost Report of 2003 to address 
        suppression cost containment issues raised during cost reviews 
        in fiscal year 2003. Provide oversight to ensure that cost 
        containment measures are implemented.
  --Working through the National Wildfire Coordinating Group's Incident 
        Based Automation Task Group, continue to enhance the ``real-
        time'' incident obligation reporting system.
    In addition, in fiscal year 2005 the Forest Service will initiate 
incentives to reduce suppression expenditures. The President's Budget 
proposes to allocate fifty percent of suppression funds to the field 
and allow unobligated year-end balances to be retained by the regions 
to be used for vegetative treatments to improve condition class. The 
objective is to create an incentive in the field (additional funds for 
on-the-ground work) to reduce expenditures, with the goal of 
eliminating the need to transfer funds. An added benefit will be an 
increase in funds available to improve condition class, which will 
further reduce suppression costs and the need to transfer funds. The 
President's Budget also includes cost containment actions and 
performance measures, expands the use of risk mitigation, updates fire 
management plans to increase wildland fire use, and implements 
suppression cost savings incentives. The Forest Service and Department 
of the Interior will develop a process through which rural fire 
department training, experience, and qualifications can be recognized 
as equivalent to National Wildfire Coordinating Group (NWCG) 
qualifications. Together with agency actions already under way, these 
efforts should effectively reduce the need for further borrowing, 
supplemental appropriations, or both.
    USDA and the Department of the Interior will continue to enhance 
agency policy and procedures to reduce suppression costs.
    Question. This subcommittee asked the National Academy of Public 
Administration (NAPA) to review increasing fire costs. One of their 
recommendations was that the Forest Service could save millions of 
dollars by more efficiently procuring the supplies and equipment that 
are used each year for firefighting. Do you agree with this assessment?
    Answer. On the surface NAPA's study and recommendations look good. 
However, the Agency feels that there are many variables and 
complexities that require further analysis. The Forest Service plans to 
continue to study and analyze NAPA's recommendation.
    Question. Are you planning to act on the NAPA recommendation?
    Answer. The Forest Service plans to continue to study and analyze 
NAPA's recommendation.
    Question. How long would you expect it to be before the investments 
that we are making in hazardous fuel reduction projects should lower 
the severity of our fire seasons and reduce firefighting costs?
    Answer. Fire season severity is the result of several factors 
including climate (primarily drought), weather (hot, dry, windy days), 
available fuel (fuel amount and fuel moisture), and ignition patterns 
and timing (primarily from lightning storms and human causes). 
Hazardous fuel reduction projects only influence one of these 
contributing factors. That said, fuel treatment in general can reduce 
the intensity of fire behavior under all but the most severe burning 
conditions.
    In 1999, the GAO estimated it would take the Forest Service 15 
years and $12 billion to treat 39 million acres at high risk (Western 
National Forests--A Cohesive Strategy is Needed to Address Catastrophic 
Wildfire Threats, GAO/RCED-99-65). They also believed that the Agency 
had an estimated 10 to 25-year ``window of opportunity'' for taking 
effective action before damage from uncontrollable wildfires becomes 
widespread.
    Further analysis conducted by Agency scientists (A Cohesive 
Strategy for Protecting People and Sustaining Natural Resources: 
Predicting Outcomes for Program Options, Hann et. al., 2002) indicates 
that after 15 years of an aggressive treatment program using a 
strategic landscape restoration approach (as opposed to random 
placement of treatments) that the average annual costs for suppression, 
prevention, initial attack, rehabilitation and property loss will drop 
below the current level.
    We need to remember that these are estimates based on our current 
knowledge of modeling predicted changes in condition class over an 
extended period of time due to the cumulative effects of fuel 
treatments, wildfire disturbance, and natural vegetation succession 
(growth).
    Question. Please outline the management problems that face the 
Agency when it has to borrow such large amounts of money from non-fire 
programs.
    Answer. Although transfers from other accounts have led to delays 
in some projects, the long-term negative effects on programs has been 
significantly mitigated by reprioritizing programs of work at both 
local and regional levels. In making these adjustments, the agency 
considers factors that determine whether related opportunities, 
availability of additional temporary employees, and increased use of 
contracting can be used to meet program and project objectives. The 
agency carries over large unobligated balances every year for multi-
year projects. In heavy fire years, it makes sense to temporarily use 
these balances until we can determine how much additional funding is 
actually needed. In addition, every year some work, such as prescribed 
burning, cannot be done due to dangerous fire conditions or other 
unanticipated conditions. There are also personnel costs that are 
budgeted in one of the Forest Service's non-fire accounts but, when 
those personnel are assigned to fire duties, are ultimately spent out 
of the fire account. In these situations, it is appropriate that 
available Federal funding be redirected to fire suppression, and it is 
not necessary to repay the non-fire accounts for such salary savings.
    Question. Does the Administration have any suggestions for a long 
term solution to this persistent problem of borrowing from non-fire 
accounts for firefighting?
    Answer. The administration has been activity addressing this issue 
through cost containment efforts and is requesting the 10-year average 
for fire suppression for both the Forest Service and the Department of 
the Interior adjusted for inflation.
    In fiscal year 2003, the Forest Service initiated several new 
efforts to contain and reduce suppression costs. This included 
improving large fire cost reviews, conducting post-incident activity 
reviews, increased accountability and oversight, increased engagement 
of line officers, greater use of incident business advisors, and the 
preferred use of the least cost alternative when suppression wildfires. 
These policies and directives were published in the Chief's Incident 
Accountability Report 2003 Action Plan, February 2003, the Large Fire 
Cost Reduction Action Plan, March 2003, and the USDA Forest Service 
Fire & Aviation Operations Action Plan for 2003, April 2003.
    In September 2003, the agency released the Consolidation of 2003 
National and Regional Large Incident Strategic Assessment and Oversight 
Review Key Findings. The report summarizes the key findings of the 
national and regional Large Incident Strategic Assessment and Oversight 
Review teams and makes recommendations to improve suppression cost 
containment and other wildfire management efforts. The agency is 
developing an Action Plan based on these recommendations and will 
continue large incident reviews in 2004. During 2004 the agency will:
  --Continue aggressive initial attack on unwanted and unplanned 
        ignitions.
  --Increase wildland fire use as prescribed in land and resource 
        management plans and report these increases in future Budget 
        Justifications.
  --Implement priority cost containment activities called for in the 
        fiscal year 2004 President's Budget and the recommendations 
        contained within the Wildland Fire Management PART, as well as 
        select recommendations from the National Academy of Public 
        Administration (NAPA) report entitled, Wildfire Suppression: 
        Strategies for Containing Costs.
  --Continue to implement safety, cost containment, and program action 
        items from the Large Fire Cost Reduction Plan and the Fire and 
        Aviation Management 2003 Operations Action Plan.
  --Reduce wildland fire suppression costs through a continued emphasis 
        on the accountability of line officers and incident commanders.
  --Review the cost-effectiveness of large fire aviation resources and 
        assess state cost-share agreements to ensure that the federal 
        government is not paying a disproportionately high share of 
        suppression costs.
  --Continue to conduct national cost containment reviews on selected 
        incidents and implement recommendations contained in the 
        Consolidated Large Fire Cost Report of 2003 to address 
        suppression cost containment issues raised during cost reviews 
        in fiscal year 2003. Provide oversight to ensure that cost 
        containment measures are implemented.
  --Working through the National Wildfire Coordinating Group's Incident 
        Based Automation Task Group, continue to enhance the ``real-
        time'' incident obligation reporting system.
    In addition, in fiscal year 2005 the Forest Service will initiate 
incentives to reduce suppression expenditures. The President's Budget 
proposes to allocate fifty percent of suppression funds to the field 
and allow unobligated year-end balances to be retained by the regions 
to be used for vegetative treatments to improve condition class. The 
objective is to create an incentive in the field (additional funds for 
on-the-ground work) to reduce expenditures, with the goal of 
eliminating the need to transfer funds. An added benefit will be an 
increase in funds available to improve condition class, which will 
further reduce suppression costs and the need to transfer funds. The 
President's Budget also includes cost containment actions and 
performance measures, expands the use of risk mitigation, updates fire 
management plans to increase wildland fire use, and implements 
suppression cost savings incentives. The Forest Service and Department 
of the Interior will develop a process through which rural fire 
department training, experience, and qualifications can be recognized 
as equivalent to National Wildfire Coordinating Group (NWCG) 
qualifications. Together with agency actions already under way, these 
efforts should effectively reduce the need for further borrowing, 
supplemental appropriations, or both.
    The Forest Service will continue to enhance agency policy and 
procedures to reduce suppression costs and looks forward to working 
with Congress on other possible solutions.
    Question. The Senate version of the 2005 budget resolution has set 
aside a specific funding category for fire suppression of $400 million 
for the Forest Service for fiscal years 2004 through 2006. What is the 
Agency's position on whether these additional funds are necessary to 
lessen the program disruptions you have faced as a result of borrowing 
to fight fire?
    Answer. We appreciate the efforts made by the Senate to develop an 
alternative source of funds for fire suppression. However, the agency 
would like to continue to work with Congress on ways to reduce the 
costs of fire suppression.
    Question. Rehabilitation and restoration needs from wildfires 
remain high. Two of the FS ``threats'' are impacted by not completing 
these activities; invasive species and unmanaged outdoor recreation by 
the loss of access by roads or trails from wildfire. What suggestions 
does the Agency have if additional funding was available or given the 
fiscal concerns the Committee has, where would the Agency propose to 
reallocate funding with in your existing budget to fund this work?
    Answer. As you note, wildfire rehabilitation and restoration are 
high priorities in the Forest Service. The four threats, including 
invasive species and unmanaged recreation also remain high on our list 
of issues with disturbing trends that we are working hard to reverse.
    The Forest Service continues to improve efficiencies within our 
programs that squeeze multiple benefits out of each program dollar. 
Where it makes sense, we are developing integrated projects that 
address multiple priorities. In addition, we are taking advantage of 
streamlined processes and increased capability provided by the new 
Stewardship Contracting and Healthy Forest Restoration Act authorities. 
To address invasive species concerns, the fiscal year 2005 President's 
Budget includes $10 million for rapid response to new introductions of 
non-native or invasive pests or pathogens for which no previous Federal 
funding has been identified to address, or for a limited number of 
instances in which any pest populations increase at over 150 percent of 
levels monitored for that species in the immediately preceding fiscal 
year and failure to suppress those populations would lead to a 10-
percent increase of annual forest or stand mortality over ambient 
mortality levels.
    Attempting to address all of the significant issues facing the 
agency within a constrained budget is no easy task. Trade-offs between 
nationally significant issues that can have long-term consequences 
requires us to strike a balance and in some cases do the best we can to 
``hold the line.'' The fiscal year 2005 President's Budget strikes that 
balance in a fiscally sound manner within a complex set of priorities.
    Question. There is a real problem with a backlog of expiring 
grazing permits that need to be renewed. Congress put a schedule in 
place for the renewal of these permits in the 1995 Rescissions Act. The 
budget justification says that the Agency is only getting done 50 
percent of the work that needs to be done each year.
    How many grazing permits are currently in the backlog?
    Answer. Since section 325 of the Fiscal Year 2004 Interior 
Appropriations Act provides relief until the end of 2008 for renewal of 
permits without completion of NEPA analysis, all grazing permit 
renewals are current for this fiscal year.
    However, there is a backlog for completing NEPA on allotments. At 
the end of fiscal year 2003, 5,002 allotments were scheduled to be 
completed out of the original 6,886 allotments on the 1996 Rescissions 
Act schedule. Only 2,296 allotments have been completed. This results 
in a backlog of 2,706 allotments at the end of fiscal year 2003. At the 
current pace of approximately 200 allotments per year, NEPA analysis 
for the backlog will not be completed until 2018. A total of 4,590 
allotments still need NEPA on the 1996 Rescissions Act Schedule.
    To more effectively address the backlog, the fiscal year 2005 
Budget calls for the Forest Service to adopt methods for prioritization 
through the development and use of qualitative tools that assess 
rangeland health and sustainability through the use of indicators that 
are linked to existing monitoring data. The Forest Service will consult 
with the Department of the Interior to develop and utilize an 
integrated and consistent framework and process for using monitoring 
and assessment information that leads to reduced allotment monitoring 
backlogs.
    Question. Given this backlog, can the Agency explain why the budget 
proposes to cut $2.5 million for the grazing management program that 
funds the permitting process?
    Answer. In addition to the methods for prioritization through the 
development and use of qualitative tools that assess rangeland health 
and sustainability through the use of indicators that are linked to 
existing monitoring data mentioned in the answer to the previous 
question, we will be applying efficiencies generated from improved 
direction in Chapter 90 of Forest Service Handbook 2209.13 which should 
help reduce costs. Examples of efficiencies include better defined and 
limited inventory and analysis needs, focusing the analysis on the 
condition of the land, conducting inventory and analysis on multiple 
allotments, keeping the number of alternatives analyzed in detail to an 
absolute minimum, and developing well defined purpose and need 
statements and proposed actions.
    Question. At the rate the Agency is going when will this backlog be 
eliminated?
    Answer. At the current pace of approximately 200 allotments per 
year, NEPA analysis will not be completed until 2022. Accordingly, the 
fiscal year 2005 Budget provides for an integrated and consistent 
framework and process for using monitoring and assessment information 
that leads to reduced allotment monitoring backlogs.
    Question. If the Committee provided more funds for permitting could 
the Agency effectively spend it next year and get more grazing permits 
completed?
    Answer. Additional funding is not needed to complete the issuance 
of grazing permits because there is no backlog of permits; all permits 
due to expire have had a new permit issued. If the Agency was provided 
additional funding beyond the constrained budget, it could complete 
additional NEPA analysis and decisions for allotments on the schedule.
    Question. How can the Agency work more efficiently to speed up this 
process?
    Answer. Yes. In addition to the methods for prioritization through 
the development and use of qualitative tools that assess rangeland 
health and sustainability through the use of indicators that are linked 
to existing monitoring data mentioned in the answer to the previous 
question, field units are conducting training that emphasizes the 
efficiencies described in the recently released Chapter 90 of Forest 
Service Handbook 2209.13. Examples of efficiencies include better 
defined and limited inventory and analysis needs, focusing the analysis 
on the condition of the land, conducting inventory and analysis on 
multiple allotments, keeping the number of alternatives analyzed in 
detail to an absolute minimum, and developing well defined purpose and 
need statements and proposed actions. Field units are also using the 
flexibility provided in section 325 of the Fiscal Year 2004 
Appropriations Act that allows them, ``. . . to determine the priority 
and timing for completing required environmental analysis of grazing 
allotments based on the environmental significance of allotments and 
funding available . . .''
    Question. In fiscal year 2003 the FS expected to sign 451 decision 
notices for livestock grazing, but only 195 were signed. The FS expects 
to sign 432 decision notices in fiscal year 2005. What changes has the 
FS made to ensure these decision notices will be signed?
    Answer. The Agency is conducting training that emphasizes the 
efficiencies described in the recently released Chapter 90 of Forest 
Service Handbook 2209.13. Examples of efficiencies include better 
defined and limited inventory and analysis needs, focusing the analysis 
on the condition of the land, conducting inventory and analysis on 
multiple allotments, keeping the number of alternatives analyzed in 
detail to an absolute minimum, and developing well defined purpose and 
need statements and proposed actions. Although there is no absolute 
assurance, it is expected that these efficiencies will help the Agency 
succeed.
    Question. The Chief has frequently talked about ``analysis 
paralysis'' at the Forest Service. Please explain how these new 
authorities will help to address that problem and how implementation of 
these authorities is proceeding? The budget increase of $33 million to 
a total of $266 million will allow the treatment of 1.8 million acres. 
Do you anticipate any issues that will prevent the FS from treating 
these acres?
    Answer. The President's Healthy Forest Initiative (HFI) is helping 
us address our ``analysis paralysis,'' which was impeding our 
restoration of fire adapted ecosystems, including treatment of 
hazardous fuels. We are actively using categorical exclusions to 
accomplish hazardous fuel reduction. Additionally, the Agency is 
utilizing new categorical exclusions for limited timber harvest to 
address small areas needing vegetation treatment and salvage. These new 
categorical exclusions facilitate scientifically sound, efficient, and 
timely planning and decision making for the treatment of vegetation, 
including hazardous fuels.
    The counterpart regulations developed as part of HFI enhance the 
efficiency and effectiveness of the Endangered Species Act (ESA), 
Section 7 consultation process by providing an optional alternative to 
the procedures when the Forest Service determines a project is ``not 
likely to adversely affect'' any listed species or designated critical 
habitat. After analysis by qualified biologists, Forest Service line 
officers will be able to certify that projects meet the ESA regulations 
and requirements without an additional concurrence from the U.S. Fish 
and Wildlife Service.
    Another useful tool is the Stewardship Contracting authority. These 
contracts allow private companies, communities and others to retain 
forest and rangeland products in exchange for the service of thinning 
trees and brush and removing dead wood. Long-term contracts foster a 
public/private partnership to restore forest and rangeland health by 
giving those who undertake the contract the ability to invest in 
equipment and infrastructure.
    The Healthy Forests Restoration Act authorities promise to expedite 
environmental analysis and decision making for hazardous fuels 
reduction and treatment of insects and disease in certain areas.
    We do not anticipate any issues that will prevent us from treating 
these acres.
    Question. How many more stewardship contracts does the Agency plan 
to do in 2004 compared to 2003?
    Answer. Currently, 7 contracts have been awarded in fiscal year 
2004. We may award over 60 contracts and agreements in fiscal year 
2004. We awarded 49 stewardship contracts in fiscal year 2003, so the 
planned increase in fiscal year 2004 over fiscal year 2003 is 11 
contracts and agreements.
    Question. How many more acres can be treated for hazardous fuels as 
a result of all these new authorities?
    Answer. For 2005, we plan to treat 200,000 more acres than we 
anticipate accomplishing in 2004. These new authorities will add 
flexibility to our ability to increase our acre accomplishments, 
particularly with mechanical treatments.
    Question. How many salvage harvest and hazardous fuels reductions 
projects used Categorical Exclusions in 2003?
    Answer. A query of the National Fire Plan Operations and Reporting 
System (NFPORS) database shows that 157 hazardous fuels reduction 
projects were categorically excluded in calendar year 2003.
    A query of the Agency's Timber Information Manager (TIM) database 
yields a conservative estimate of 140 categorically excluded salvage 
harvests in 2003. While the database allows for identification of 
categorically excluded harvests, salvage harvests can only be 
identified where the term is used in the project name.
    Question. How many more projects does the Agency expect to use 
these on in 2004?
    Answer. A query of the National Fire Plan Operations and Reporting 
System (NFPORS) database shows that 442 hazardous fuels reduction 
projects are planned for calendar year 2004, using a categorical 
exclusion.
    Salvage harvests normally occur on an opportunity basis. As such, 
providing a planned figure would be speculative. While the level of 
salvage harvest activity will be dependant on events such as fire, 
blowdown, insects, and disease, there is a likelihood of increased 
usage of the salvage categorical exclusion to improve planning 
efficiency and make more timely decisions concerning salvage harvests.
    Question. The Forest Service has received a clean audit opinion for 
fiscal year 2003. After years of not having the books in order, the 
Agency has received a clean opinion of your financial statements for 
the last 2 years.
    Has the Agency put in place the necessary accounting systems to 
ensure that the Agency will continue to receive clean opinions in the 
future?
    Answer. The Foundation Financial Information System (FFIS) 
implemented in fiscal year 2000 has enabled the Forest Service to 
facilitate Federal accountability requirements by complying with the 
United States Standard General Ledger (SGL). FFIS is also compliant 
with current system and reporting requirements, as well as, Federal 
budget and accounting standards. FFIS also provides the capability to 
produce periodic reports that display budgetary and actual financial 
results, as well as, meet other financial and reporting requirements.
    Since implementation of the Foundation Financial Information System 
(FFIS), we have had significant improvement over financial management 
and accountability of our funds. However, in addition to implementing a 
new financial management system, we also made policy and/or procedural 
changes. For the past several years we have made improvements in our 
business processes to ensure the results of our operations are properly 
recorded for all funds. These policies also help improve our internal 
controls in the field offices, as well as, in the headquarter office.
    The Department of Agriculture is leading efforts with the 
elimination of feeder systems and in some cases replacing them with 
more technologically advanced systems.
    Question. The Chief recently sent out a memo to the field 
discussing the need to update the Agency's financial management 
systems. What needs to be done in order to update these systems?
    Answer. The memos recently issued by the Chief addressed the need 
to reengineer our financial management organization. Reengineering our 
financial management organization is part of the ongoing effort to 
stabilize financial management which includes leveraging the use of 
current technology within our Agency.
    Question. How much will these new systems cost?
    Answer. At this time, information is not available to compute the 
cost of the changes.
    Question. The Forest Service is still on the GAO's list of agencies 
at high risk of waste, fraud and abuse even though it received a clean 
audit opinion.
    What further steps must be taken in order for the Agency to get 
taken off of the GAO list?
    Answer. The Forest Service is in the process of implementing 
changes in processes, procedures, and systems to ensure that we are not 
a high risk Agency. We are developing and clarifying accounting 
policies that can be used by our financial and program management 
staffs. These policies will improve our internal and administrative 
controls. We are also in the process of resolving material weaknesses 
cited as a result of the audits. A few of the fiscal year 2002 material 
weaknesses were resolved or disclosed as reportable conditions, which 
indicates improvement. Also we went from six material weaknesses in 
fiscal year 2002 to four in 2003 which is a result of on-going 
assessments and modifications to our processes and procedures. The 
Department of Agriculture is leading efforts with the elimination of 
feeder systems and in some cases replacing them with more 
technologically advanced systems. We have begun the process of 
establishing a centralized financial management organization. In 
conjunction with the centralization efforts we will also reengineer our 
business processes. At this time information is not available to 
compute the cost of changes, such as, the centralization of our 
financial management organization, which will lower our risk. We are in 
the early stages of this process. The cost of implementing new systems 
is part of the Department's assessment.
    According to the proposed budget, the Agency has a backlog of 
deferred maintenance of over $5 billion. But the 2005 budget proposes 
to cut $54 million from the Capital Improvement and Maintenance 
account.
    Question. Why is the Agency cutting this account when the backlog 
of maintenance needs is so high?
    Answer. Given the reduction in deferred maintenance, the Agency 
will continue to focus on addressing the deferred maintenance backlog 
and addressing critical safety needs. Moreover, despite the decrease in 
Captial Improvement, facilities, roads, and trail maintenance funding 
is virtually level and the President's Budget proposes $10 million in 
funding above the 2004 request to address the deferred maintenance 
backlog.
    Question. How is the Agency planning to address this enormous 
backlog of deferred maintenance?
    Answer. Forests are completing their facility master planning which 
will identify unneeded and underutilized facilities. We are actively 
reducing unneeded or underutilized roads, trails and facilities. As one 
example, over the past 5 years we have decommissioned over 10 times the 
more roads than we have constructed under decommissioning authorities 
provided by Congress. We are focusing our capital investment funds on 
those projects where critical health and safety items exist and on 
deferred maintenance projects. We are utilizing the ``pilot'' facility 
conveyance language that the Agency has had in fiscal years 2002, 2003, 
and 2004 to sell excess administrative sites and use the proceeds to 
reduce deferred maintenance or consolidate operations into a new 
facility which will save outyear operation and maintenance funds.
    Question. In the fiscal year 2004 Interior Appropriations bill 
language was included dealing with post-fire rehabilitation and salvage 
issues on the Kootenai and the Flathead National Forests. The intent of 
this language was to speed up the environmental review process so that 
these areas could be rehabilitated before invasive weeds took over and 
we could provide some critically needed timber to local Montana mills.
    Please explain how the implementation of this critical legislation 
is proceeding?
    Answer. The Flathead National Forest is proceeding quite well due 
to the legislation, Flathead Forest Supervisor leadership, and the 
dedication of many Forest Service team employees. The Draft 
Environmental Impact Statement (EIS) for the Robert/Wedge Fires will be 
released in June 2004, with a final EIS anticipated by October 2004. 
Per the legislation, only one action alternative is being analyzed. 
Offer of salvage volume is planned in October-December 2004.
    Implementation of the legislation for the Kootenai National Forest 
is delayed because 15 planned sales for about 17 million board feet are 
currently suspended due to a court order that has not been resolved.
    Both Forests have met all the requirements of the legislation.
    Question. How much quicker will the Forest Service be able to start 
on-the-ground salvage and rehabilitation projects as a result of this 
authority?
    Answer. Projects that require an environmental impact statement can 
take from 1\1/2\ to over 2 years to complete. However, because of 
Flathead National Forest leadership, the Flathead project will only 
take about 10 months to complete. At least 2 weeks of time were saved 
by analyzing only one action alternative, and an unknown amount of time 
was saved as a result of omitting total maximum daily load process, per 
the legislation.
    The Forest Service fiscal year 2005 budget request proposes to 
eliminate the Economic Action Program which received $25.6 million this 
year. Through projects like Fuels for Schools, the Forest Service has 
helped to create markets to utilize the smaller diameter material that 
is the major component of fuels reduction projects.
    Question. Isn't funding new commercial uses for small diameter 
material crucial to reducing fuel loads on our nation's forests?
    Answer. In the Forest Service's Strategic Plan for fiscal years 
2004-2008, we are emphasizing the use of hazardous fuels reduction by-
products. This will involve efforts to support relatively new or 
emerging product markets such as bio-based fuels in addition to 
expanding the use of wood in traditional markets. We will work in 
collaboration with Federal, State, tribal, and local government and 
with the private sector to adopt effective solutions to this issue. 
Developing these partnerships at the local level to address local 
variations in the issue is particularly important.
    We will also strive to keep timber sales economical for the 
existing infrastructure, so that it can be maintained. In addition, we 
will emphasize the use of service contracts and stewardship contracting 
to support new and existing markets and accomplish our restoration 
objectives.
    Question. Isn't the Economic Action Program, which requires a local 
match, an effective way for the Federal Government to help spur the 
development of these new uses and markets?
    Answer. Some EAP grants may be effective; however, they duplicate 
other USDA programs.
    Question. What do the Agency's fire models predict for this year's 
fire season in the West?
    Answer. Fire season 2004 has all the indicators of being very 
active, particularly in the western states. Although experiencing a 
normal amount of snow pack this year, that along with associated 
rainfall have not been significant enough to break the drought. The 
persistence of this drought, exacerbated by record rates of snow melt, 
will continue to plague much of the west and subject many areas to 
above normal fire danger. One example would be north-central Montana 
where a record setting driest October-March period was recorded. 
Currently many states are experiencing record high temperatures which 
promote fuels reaching critical levels at early dates. Longer-term 
forecasts call for no significant improvement in terms of temperature 
relief or increased precipitation.
    Dry conditions also are evident in parts of the south and will 
continue to experience high to extreme fire dangers until seasonal 
rainfall is established, hopefully by July 4th.
    Even normal, seasonal drying will produce conditions which have the 
potential to produce an active season in the west and one which could 
be equal to the one experienced in fiscal year 2003.
    Question. Nationally, does the Agency expect a fire season in 2004 
that was as bad as last year?
    Answer. While difficult to predict, the 2004 fire season could be 
equal to the one experienced in fiscal year 2003.
    The Committee is concerned about the large cut (17.5 percent) that 
is proposed in the budget for the Forest Health program in State and 
Private forestry. This program helps to monitor and treat millions of 
acres of state, Federal, and private lands for insects and diseases.
    Question. During the terrible fires we had last summer in Montana, 
a letter was sent from the Chairman of the Interior Appropriations 
Subcommittee asking for additional resources to help with 
rehabilitation and salvage work. The Chief responded by committing to 
make these resources available so that this work could get done and we 
could help the small mills in Montana.
    What additional resources did you provide to Montana?
    Answer. The Northern Region (Region 1) received $3 million to fund 
emergency timber salvage needs across the Region. The Flathead National 
Forest was allocated $850,000 to immediately begin NEPA work on the 
Wedge Canyon, Robert and Westside fires areas. An additional $800,000 
is anticipated for fiscal year 2004 preparation work. Over $1.5 million 
was also allocated to other national forests in Region 1 for work that 
will be accomplished using categorical exclusions, primarily for fire 
and bark beetle salvage.
    Region 1 also received $1,922,000 in fiscal year 2004 for 
restoration and rehabilitation work. Reforestation, road restoration 
and noxious weed treatments are the primary projects funded.
    Question. What additional timber volumes was the Agency able to 
provide to the mills by using these extra resources?
    Answer. About 100 million board feet in salvage volume is 
anticipated from the Flathead National Forest projects, to be offered 
in the first quarter of fiscal year 2005. About 12 million board feet 
is being offered in fiscal year 2004 using categorical exclusions.
    Question. The Committee is concerned about the large cut (17.5 
percent) that is proposed in the budget for the Forest Health program 
in State and Private forestry. This program helps to monitor and treat 
millions of acres of State, Federal, and private lands for insects and 
diseases.
    How many fewer acres will be treated as a result of these cuts?
    Answer. We estimate about 270,000 acres. However, many of these 
acres would be offset and long-term risk mitigated though the $10 
million proposed for the emerging pests and pathogens.
    Question. How many acres nationally need treatment for insects and 
disease?
    Answer. Nationally there are millions of acres that need 
suppression, prevention and/or restoration treatment to reduce the risk 
of an insect or disease outbreaks or restore the forest after such 
outbreaks. That number would require vastly more sums of money to treat 
than are available, so prioritization of treatment is paramount. Areas 
at special risk include several southern and western states with 
increasing incidences of southern pine beetle and western bark beetle 
attacks, urban and community forests in the Lake States threatened by 
the invasive emerald ash borer, areas of California and Oregon where 
sudden oak death has been introduced, and eastern states with hemlock 
wooly adelgid attacking eastern hemlock.
    Question. How will these cuts impact the Forest Service's response 
to the increased threat of sudden oak death syndrome to eastern oak 
forests?
    Answer. In fiscal year 2004, the Forest Service allocated $1.7 
million for survey and management activities related to sudden oak 
death (SOD). Recently, we allocated an additional $1 million to survey 
and sample forestlands threatened by spread of SOD through infected 
nursery stock, much of which has proved untraceable. The Forest Service 
has pledged to help our partners find and eradicate incipient 
infestations, and protect the eastern hardwood forests, to the degree 
funding allows.
    Question. How many acres are in the greatest need of fuels 
reduction treatments?
    Answer. The Forest Service's Cohesive Strategy published in October 
2000 identified some 73 million acres of National Forest lands that are 
in fire regime 1 and 2, condition class 2 and 3, at high risk of 
wildland fire, and in greatest need for fuel reduction treatments.
    Question. How many acres does the Agency plan to treat in 2005 
compared to 2004?
    Answer. The Agency plans to treat 1.6 million acres in fiscal year 
2004 and 1.8 million acres in fiscal year 2005.
    Question. Please outline the various programs besides fuels 
reduction that also further the goals of the Healthy Forests Act and 
reduce fuels in our forests?
    Answer. The fuels reduction program is integrated with other 
programs that support wildlife habitat improvements, watershed 
enhancements, vegetation management, timber harvest, and forest health 
management, and research. Some of the budget line items within the 
National Forest System appropriation include; Wildlife and Fisheries 
Habitat Management, Forest Products, Vegetation and Watershed 
Management, and Hazardous Fuels. Budget line items within the State and 
Private Forestry appropriation include; Forest Health Management--
Federal Lands, and State Fire Assistance. Some of our Permanent 
Appropriations and Trust Funds include; Timber Salvage Sales, and 
Cooperative Work--Knutson-Vandenberg. A portion of our Research 
appropriation also contributes to the goals of the Healthy Forests 
Restoration Act.
    Some of the new tools now available include the new categorical 
exclusions provided through the Healthy Forest Initiative that focus on 
hazardous fuels reduction and post-fire rehabilitation, and the limited 
timber harvest categorical exclusions that include the thinning of 
overstocked stands of timber, salvage of dead or dying trees, and 
harvest of trees to control insect and disease. The stewardship 
contracting authorities are also being used to meet the intent of the 
Healthy Forests Initiative and reduce fuels. Planning and 
implementation of timber sales is being focused in areas where fuel 
reduction needs are greatest. To accomplish fuel reduction with 
stewardship contracts, the fuels treatments will be done through 
trading goods for services.
    Question. Please explain the rationale for the administration's 
proposal to move the funding for hazardous fuels reduction from the 
Fire account to the National Forest System account?
    Answer. The proposal is consistent with the President's Healthy 
Forest Initiative and the Healthy Forest Restoration Act. It enhances 
consideration of the effects of all vegetative management treatments 
upon the condition class of NFS resources. The proposal will allows 
managers to consider in a quantifiable, systematic manner the relative 
costs and benefits of proposed projects upon wildfire risk reduction 
and other land resources management objectives. The proposal also will 
allow the agency the ability to prioritize fuels reduction projects 
along with other NFS programs if it becomes necessary to transfer funds 
to Wildland Fire Suppression during severe wildfire seasons. This 
discretion is not currently available.
    Question. Why is this transfer necessary?
    Answer. The proposal enhances consideration of the effects of all 
vegetative management treatments upon the condition class of NFS 
resources. The proposal will allows managers to consider in a 
quantifiable, systematic manner the relative costs and benefits of 
proposed projects upon wildfire risk reduction and other land resources 
management objectives.
    Question. On March 23, 2004, the Department of Agriculture, 
Department of the Interior, and Department of Commerce signed an 
agreement to implement new regulations that will expedite fuels 
reduction and other forest health projects while ensuring the 
protection of threatened and endangered species. The Forest Service and 
BLM are preparing a Northern Rockies Lynx FEIS and ROD to amend the 
Forest plans of 18 Forests in Montana, Idaho, Wyoming, and Utah.
    How will the Agency measure the success of the new regulations to 
expedite forest health projects?
    Answer. The Forest Service tracks hazardous fuels reduction 
accomplishments through an inter-agency National Fire Plan Operations 
and Reporting System database (NFPORS). Through this database, the 
Agency can review planned and realized hazardous fuels reduction 
accomplishments. In addition, the Chief's office will be conducting 
fuels program reviews, which will provide an additional feedback 
mechanism for monitoring the efficacy of the Agency's new authorities 
and tools.
    Question. How will the Northern Rockies Lynx Amendment FEIS and ROD 
reduce the ``analysis paralysis'' for projects other than hazardous 
fuel treatment?
    Answer. The comment period for the Northern Rockies Lynx Amendment 
Draft Environmental Impact Statement (EIS) closed April 15, 2004. We 
are evaluating those comments to determine what, if any, changes are 
needed in the Final EIS, including the need to modify the preferred 
alternative. Therefore it is somewhat premature to answer this 
question.
    Question. Will the new lynx amendment allow the Forest Service to 
provide adequate snowmobile play areas or groomed trails to offset the 
reduction or worse, the loss of snowmobile use in Yellowstone National 
Park?
    Answer. The management direction only applies to lynx habitat on 
National Forest and Bureau of Land Management system lands, and only 
applies to routes or areas that are designated for over-the-snow 
recreation. Routes or areas designated for over-the-snow recreation are 
those areas under permit or included in winter recreation maps/
brochures where we encourage use.
    The comment period for the Northern Rockies Lynx Amendment Draft 
Environmental Impact Statement (EIS) closed April 15, 2004. We are 
evaluating those comments to determine what, if any, changes are needed 
in the Final EIS, including the need to modify the preferred 
alternative. Therefore it is somewhat premature to answer this 
question.
    The alternatives considered in the Draft EIS have varying abilities 
to accommodate increased levels of snowmobile use. Alternative B 
essentially maintains the status quo. Alternatives C, D, and E allow 
some level of increased use. The Draft EIS did not include a detailed 
analysis regarding the amount of surplus capacity available on National 
Forest System lands that would be available under each alternative to 
absorb use from Yellowstone National Park, should they limit snowmobile 
use there.
    Question. The Forest Service recently acquired 25 surplus COBRA 
helicopters from the Army surplus yard at Ft. Drum, NY. Two of those 
COBRA's have been outfitted by the Forest Service with state of the art 
electro-optical/infrared (EO/IR) sensors which significantly enhance 
the operator's ability to see in obscure or reduced visibility 
situations, which is often present in fire fighting situation. Many 
Federal law enforcement and military services are already using this 
technology.
    The Committee understands that for the Forest Service this EO/IR 
technology may have the capability to accurately determine the position 
of hotspots and fire lines and pass the precise GPS coordinates to 
ground crew in real time; track the progress of ground crews and assess 
dangerous developing situations; and with this technology fire fighters 
can more effectively direct aerial tanker assets.
    Could you provide the Committee an update on where the two EO/IR 
systems are currently being deployed?
    Answer. The first Cobra EO/IR system has recently been completed 
with the assistance of USFS Region 5 (California) as the program's 
initial administrator. The Cobra is currently in Redding, California 
and is scheduled to become available for fire assignments on May 24, 
2004 (the historical average start of the California fire season). This 
Cobra could be mobilized earlier if other geographic areas request it.
    A second Cobra EO/IR system is currently being converted at Ft. 
Drum, NY and should be ready for delivery by mid-June 2004. It will 
then be relocated to Grass Valley, California and activated shortly 
thereafter.
    Question. Who ultimately determines when and how those two COBRA 
units will be used for aerial fire surveillance, tactical fire fighting 
missions, possibly search and research, or any other purposes?
    Answer. These assets are considered national resources and can be 
mobilized at anytime by a number of mechanisms. The host Geographic 
Area Coordination Center (GACC) or Multi-agency Coordinating Group (MAC 
Group) is responsible for assigning appropriate resources to any 
outstanding order they receive. When there is serious competition for 
resources in multiple geographic areas, the National Interagency 
Coordination Center (NICC) or the National MAC Group (NMAC) will 
determine priorities and may reassign any ``national resource.''
    The crew of the aircraft will be directed to a delivery point or 
incident and coordinate with a dispatch center, line officer or 
incident personnel as to how they will be utilized. The crew will 
advise those requesting assistance of their ability to accomplish 
specific missions in an effective and safe manner.
    Question. The Forest Service maintains an admirable record of 
controlling over 90 percent of the fires which present themselves on 
Federal lands, but those outbreaks which do develop into Type I (major) 
fires are extremely costly and disruptive to the Forest Service budget. 
Could you provide a breakdown of the cost of controlling/containing 
Type I fires compared to other smaller fires in fiscal year 2003-2004?
    Answer:

----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year                Fiscal year
                     Fire Class & Size                           2003        Percent      2004 \1\      Percent
----------------------------------------------------------------------------------------------------------------
Small (A, B, C, & D class .25 to 299.9 acres).............    $100,600,626        7.9     $20,802,427        4.3
Large (E, F, & G 300-5,000+ acres)........................   1,170,224,295       92.1     460,873,744       95.7
                                                           -----------------------------------------------------
      Total...............................................   1,270,824,921  .........     481,676,170  .........
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2004 costs incurred from 10/1/2003 through 4/29/2004.

    Question. Could you provide a table delineating the major cost 
items, such as man-power, fuels, leased equipment, retardant, etc. for 
Type I fires in fiscal year 2003-2004?
    Answer. Our ability to break down major cost items is limited to 
the Budget Object Class information contained in the accounting system. 
So, for example we can break information into personnel costs, travel, 
supplies and equipment, and contracts, but we cannot separately 
identify retardant or fuels expense. We were unable to compile the 
requested detail by the due date.
    Question. If the fire situation in the west worsens this year, does 
the Forest Service have the capability to rapidly convert additional 
COBRA units with EO/IR sensing equipment from within available funds?
    Answer. There are no plans nor designated funds currently budgeted 
to expand the program beyond the two cobras that have been identified.

                                 ______
                                 
               Questions Submitted by Senator Ted Stevens

    Question. I am pleased to see that the Forest Service proposes an 
increase of $63.8 million above fiscal year 2004 for hazardous fuel 
reduction near and around the WUI, which includes $1.29 million for 
Alaska. However, these funds will only provide treatment on 361 acres 
on the Chugach National Forest. Over 200,000 acres of untreated 
hazardous fuels within the WUI still remain on the Kenai Peninsula. The 
Kenai Peninsula has been devastated by the spruce beetle--almost 4 
million acres of forests were infested and killed by the spruce beetle. 
This negatively impacts wildlife habitat, fisheries, and watersheds, 
and contributes to the fire hazards in the area. Given these 
statistics, why is the Forest Service proposing treatment on only 361 
acres?
    Answer. The Forest Service proposes to treat 361 WUI acres in 
fiscal year 2004 on the Chugach, financed out of Wildland Fire 
Hazardous Fuels (WFHF) funds, because those acres were identified as 
the priority for the Alaska region, and are at high risk for wildland 
fire. The Forest Service also allocated WFHF funds to the Alaska 
Division of Forestry to treat 110 acres on state lands adjacent to 
Federal lands in high risk areas on the Kenai. The Forest Service has 
allocated non-WFHF funds to treat 325 WUI acres of hazardous fuels on 
the Kenai. Thus, the total number of acres to be treated on Forest 
Service and state & private lands on the Kenai Peninsula, using 
Hazardous Fuels and other Forest Service funds, is 796 acres. 
Additional funds have been allocated for treatment of hazardous fuels 
on the Kenai Peninsula via State Fire Assistance, National Fire Plan 
and congressional earmarks.
    The acres at risk in the WUI on the Kenai Peninsula are primarily 
located on State or private land. Congressional earmark funds have been 
directed to the Kenai Peninsula for several years to treat this 
hazardous fuel. In 2002, $6 million was allocated to State, Tribal, or 
local entities for treatment of hazardous fuels on State or private 
lands on the Kenai; in 2003, the Forest Service also allocated $5.4 
million for the Kenai, and in 2004, $5.9 million was set aside for this 
purpose.
    A Collaborative Forest, Wildfire and Fuels Treatment Program--
Coordinating Committee has been established, representing major land 
owners on the Kenai Peninsula, to help plan and prioritize hazardous 
fuel treatment projects to insure that funds expended by State, Tribal, 
or municipal authorities achieve maximum benefits for community fire 
protection and are spent in accordance with Congressional intent. A 5-
year fire prevention & protection, forest health, restoration & 
rehabilitation and community assistance action plan has been developed 
and will be implemented under the direction of the coordinating 
committee. The action plan is titled the ``Interagency All Lands/All 
Hands 5-Year Action Plan (2004-2008)''.
    Question. I am extremely concerned that the Forest Service's budget 
proposes only $4.64 million for the State & Private Forestry account in 
Alaska, a $3.39 million decrease in funding. This program provides 
grants to communities for land-use treatments on private lands to 
protect communities from wildfires, which is very important to 
communities in Alaska that are surrounded by Federal lands. Given the 
President's focus on maintaining healthy forests, why did the Forest 
Service decrease funding?
    Answer. The amount of funds going to Alaska in fiscal year 2005, as 
shown in the budget justification, is a very rough estimate. The 
allocation has not yet been determined with any degree of precision. 
Forest Health funds will depend on conditions that are not yet known. 
Cooperative fire, forest stewardship, and urban forestry funds vary 
with the amount of funding--to the degree that funding is higher or 
lower, Alaska's share will be higher or lower. Forest legacy funds are 
project-specific; the President's budget includes $1,000,000 for the 
Agulowak River project, plus a yet-to-be-determined amount for program 
administration.
    Question. Another program important to my state is the Economic 
Action Program. This program develops partnerships with the state and 
communities to improve management and protection of forest products and 
maintaining forest health to achieve long term goals for sustainable 
development. It has provided grants to 17 communities near the Chugach 
and Tongass National Forests totaling more than $2 million. Despite the 
critical importance of these grants to forest dependent communities in 
Alaska, the Forest Service eliminated funding for this program. Why was 
funding eliminated?
    Answer. The President's Budget focuses on USDA's rural development 
programs and in other Forest Service Programs that both directly and 
indirectly assist communities. Forest Service programs that benefit 
communities include forest health management, state and volunteer fire 
assistance, forest stewardship, urban and community forestry, and the 
hazardous fuels reduction program.
    For those places that already have adequate community capacity to 
compete for loans and grants, USDA's Rural Development programs can 
address the needs via the following programs:
  --Business and Industry guaranteed loans.--Provides up to 90 percent 
        guarantee of a loan made by a commercial lender for 
        agricultural enterprises. The business applying for the loan 
        must already have strong equity and collateral.
  --Rural Business Enterprise Grants.--Provides grants to public 
        institutions to assist agricultural business. Grants do not go 
        directly to businesses.
  --Intermediary Re-lending Program.--Provides grants for 
        intermediaries to re-lend through an adequately secured loan 
        for new agricultural businesses, and expansion of those 
        existing businesses unable to obtain a conventional loan.
  --Rural Business Opportunity Grants.--Promotes sustainable economic 
        development in rural communities with exceptional needs such as 
        natural disasters, structural changes, and persistent poverty 
        or population decline. Provides grants for economic planning, 
        business assistance, and training to obtain specific USDA-RD 
        program funding.
  --Cooperative Development Grants.--Grants are available for 
        cooperative development to establish and operate centers for 
        cooperative development.
    Question. The 2002 Farm Bill authorized $100 million over 5 years 
for the Forest Land Enhancement Program to provide financial and 
technical assistance through State Foresters to landowners to implement 
land enhancement practices. These improve the productivity and health 
of non-industrial private forest land. In Alaska, over $800,000 was 
used for reforestation efforts. The Forest Service's budget proposes 
eliminating this program by reprogramming $40 million to other high 
priority programs. What will the Forest Service do with those funds?
    Answer. FLEP activities qualify for other Forest Service, Federal, 
or State conservation program support. As of 2004, USDA alone 
administered 23 programs that give agricultural land users financial 
incentives to apply conservation measures to their farms, ranches, and 
forests. These programs are included in the following table:

----------------------------------------------------------------------------------------------------------------
              USDA Bureau                           Program                   Resource conservation issues
----------------------------------------------------------------------------------------------------------------
FSA....................................  Emergency Conservation         Land damaged by wind erosion and other
                                          Program.                       disasters, including drought.
FSA....................................  Soil and Water Conservation    Conserve, improve, and sustain natural
                                          Loan Program.                  resources and environment.
FSA....................................  Conservation Reserve Program.  Wildlife habitat.
                                                                        Tree planting.
                                                                        Enhance forest and wetland resources.
FSA....................................  Conservation Reserve           Improves water quality by establishing
                                          Enhancement Program.           vegetative buffers, including trees.
FSA....................................  Farm Debt Cancellation--       Environmentally sensitive lands for
                                          Conservation Easements         conservation, recreation, and wildlife
                                          Program.                       purposes.
FSA....................................  Integrated Farm Management     Conserving soil, water, and related
                                          Option.                        resources, including forests.
FS.....................................  Forest Legacy Program........  Conservation easements for forests
                                                                         threatened with conversion to non-
                                                                         forest uses.
NRCS...................................  Colorado River Basin Salinity  Conservation practices that reduce salt
                                          Control Program.               levels in the Colorado River.
NRCS...................................  Rural Clean Water Program....  Rural non-point source pollution
                                                                         control.
NRCS...................................  Small Watershed Program......  Improve water quality in small
                                                                         watersheds.
NRCS...................................  Emergency Wetland Reserve      Restore wetlands function.
                                          Program.
NRCS...................................  Water Bank Program...........  Conserve water and wildlife habitat.
NRCS...................................  Wetlands Reserve Program.....  Range land, pasture, or production
                                                                         forest land where the hydrology has
                                                                         been significantly degraded and can be
                                                                         restored.
NRCS...................................  Agricultural Management        Plant trees for windbreaks.
                                          Assistance.                   Integrated pest management.
NRCS...................................  Conservation Innovation        Water.
                                          Grants.                       Soil.
                                                                        Air.
                                                                        Grazing Land and forest health.
                                                                        Wildlife habitat.
NRCS...................................  Conservation Security Program  Maintain and enhance the condition of
                                                                         natural resources, including forests.
NRCS...................................  Emergency Watershed            Watershed protection.
                                          Protection.
NRCS...................................  Environmental Quality          Prescribed burning.
                                          Incentive Pro-  gram.         Planting.
                                                                        Fencing.
                                                                        Riparian forest buffers.
                                                                        Firebreaks.
                                                                        Forest site preparation.
                                                                        Tree/shrub enhancement.
                                                                        Forest trail and landings.
                                                                        Forest stand improvement.
NRCS...................................  Watershed Protection and       Water needs for fish, wildlife, and
                                          Flood Prevention.              forest-based industries.
NRCS...................................  Farm and Ranch Lands           Conservation easements.
                                          Protection Program.
NRCS...................................  Grasslands Reserve Program...  Conservation easements.
----------------------------------------------------------------------------------------------------------------

    The General Accounting Office, in its report entitled Federal 
Budget: Opportunities for Oversight and Improved Use of Taxpayer Funds 
(GAO-03-922T June 18, 2003), stated:

``Policymakers and managers need to look at ways to improve the 
economy, efficiency and effectiveness of Federal programs and specific 
tax expenditures. Even where we agree on the goals of programs, 
numerous opportunities exist to streamline, target and consolidate to 
improve their delivery. This means looking at program consolidation, at 
overlap and at fragmentation.''

    In addition to the 23 other conservation incentive programs within 
USDA alone, the fiscal year 2005 President's Budget includes $129.5 
million for the Department of the Interior's Cooperative Conservation 
Initiative. That amount is a 25 percent increase over fiscal year 2004. 
Because FLEP is duplicative of services provided by other programs of 
USDA and DOI and countless other programs of other Federal agencies, 
States or non-government organizations, the proposal is fully 
consistent with GAO's suggestion.
    Question. The Forest Service also eliminated $5 million in 
additional funding to prepare timber sales in Alaska. These funds are 
used to prepare environmental assessments and impact statements 
necessary to ensure a stable supply of timber available for harvesting 
while maintaining the multiple use mandate of the Forest Service. Under 
the Forest Service budget, how much funding will be allocated to 
Alaska's timber program in fiscal year 2005?
    Answer. The estimated allocation to the Alaska Region is $25.5 
million. The final allocations to the Region will be based Agency's 
total final enacted budget.
    Question. Alaska currently has a backlog on road maintenance 
projects. It is estimated that an additional $5.6 million is needed to 
address this situation. What portion of the Forest Service's road 
maintenance budget will be allocated to Alaska?
    Answer. Road maintenance is not broken out from capital 
improvements by region in the Roads budget line item. The final 
allocation of the Roads, Capital Improvement and Maintenance 
appropriation will be based on the Agency's total final enacted budget.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 9:30 a.m., Thursday, March 
25, in room SD-124. At that time we will hear testimony from 
the Honorable Gale A. Norton, Secretary, Department of the 
Interior.
    [Whereupon, at 10:29 a.m., Thursday, March 11, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
March 25.]

</pre></body></html>
